                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     EPA Needs to Further
                     Improve How It Manages Its
                     Oil Pollution Prevention
                     Program
                     Report No. 12-P-0253                    February 6, 2012




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Stacey Bond
                                                   Ira Brass
                                                   Allison Dutton
                                                   Dan Engelberg
                                                   Danielle Tesch
                                                   André von Hoyer
                                                   Michael Wagg




Abbreviations

CFR           Code of Federal Regulations
CWA           Clean Water Act
DOI           U.S. Department of the Interior
DOT           U.S. Department of Transportation
EPA           U.S. Environmental Protection Agency
ESA           Expedited settlement agreement
FRP           Facility Response Plan
FY            Fiscal year
GAO           U.S. Government Accountability Office
GIS           Geographic information systems
ICIS          Integrated Compliance Information System
ICP           Integrated Contingency Plans
OECA          Office of Enforcement and Compliance Assurance
OEM           Office of Emergency Management
OIG           Office of Inspector General
OSWER         Office of Solid Waste and Emergency Response
SPCC          Spill Prevention, Control, and Countermeasure


Cover photos:	 From left: An aboveground storage facility in Nenana, Alaska, at
               the confluence of the Tanana and Nenana Rivers; a pump jack at a
               non-transportation-related oil production facility. (EPA photos)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                12-P-0253
                                                                                                        February 6, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Review               EPA Needs to Further Improve How It Manages
The Office of Inspector
                                     Its Oil Pollution Prevention Program
General received a request
from the House Committee on           What We Found
Transportation and
Infrastructure to review the         Although EPA has taken steps to improve its program to prevent oil spills from
U.S. Environmental Protection        known facilities to waters of the United States, the Agency remains largely
Agency’s (EPA’s) steps to            unaware of the identity and compliance status of the vast majority of CWA
ensure the quality and               Section 311 regulated facilities. Effective program management requires EPA to
consistency of oil spill             know the identity and nature of the facilities it is responsible for regulating. EPA
prevention and response plans,       has taken a number of steps to improve the quality and consistency of SPCC
and to review how EPA tracks         Plans and Facility Response Plans (FRPs). EPA has also improved its ability to
violators under the Clean Water      track individual CWA Section 311 violations and violators in a new national
Act (CWA) Section 311                database. However, EPA still does not have knowledge of most facilities it is
program.                             responsible for regulating. In addition, Agency data systems cannot exchange
                                     data with each other, and lack consistent and sufficient codes to categorize
Background                           deficiencies and noncompliance. These data systems limitations prevent EPA
                                     from capturing the full details of a known violator’s history or identifying trends
In 1973, EPA issued the Spill        in compliance and enforcement. As a result, EPA cannot assess the success of
Prevention, Control, and             steps it has taken to improve the quality and consistency of SPCC Plans, FRPs, or
Countermeasure (SPCC) Rule           the oil pollution prevention program as a whole. Therefore, the Agency is unable
to establish procedures,             to assess the degree to which its actions will help prevent future oil spills or
methods, and equipment               mitigate their associated impacts.
requirements to prevent oil
discharges from non­                  What We Recommend
transportation-related facilities.
The SPCC Rule requires               We recommend that the Assistant Administrator for Solid Waste and Emergency
facilities to prepare plans          Response, in consultation with the Assistant Administrator for Enforcement and
outlining their spill prevention     Compliance Assurance, improve oversight of facilities regulated by EPA’s oil
procedures and                       pollution prevention program. Specifically, we recommend that EPA improve
countermeasures to address the       oversight by biennially assessing and reporting on the quality and consistency of
effects of an oil spill.             SPCC Plans and FRPs, implementing a risk-based inspection strategy, updating
                                     guidance, and consistently interpreting SPCC and FRP regulations. We further
                                     recommend that the two Assistant Administrators work together to establish a
                                     national oil program database that contains compliance histories for regulated
For further information, contact     facilities, can track compliance trends, and exchanges data with other EPA
our Office of Congressional and      databases. While the Agency recognized that it could improve the program, it
Public Affairs at (202) 566-2391.    neither agreed nor disagreed with most of our recommendations. Although the
                                     Agency disagreed with our recommendation regarding consistently interpreting
The full report is at:
www.epa.gov/oig/reports/2012/        regulations, we believe the recommendation is valid. In response to Agency
20120206-12-P-0253.pdf               comments, we added the recommendation about biennially assessing the quality
                                     and consistency of plans. All recommendations in this report are unresolved.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460

                                                                             THE INSPECTOR GENERAL




                                        February 6, 2012

MEMORANDUM


SUBJECT:	 EPA Needs to Further Improve How It Manages
          Its Oil Pollution Prevention Program
          Report No. 12-P-0253


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Mathy Stanislaus
               Assistant Administrator for Solid Waste and Emergency Response

               Cynthia Giles
               Assistant Administrator for Enforcement and Compliance Assurance


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. Your response will be posted on the OIG’s public website, along
with our comments on your response. Your response should be provided in an Adobe PDF file
that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of
1973, as amended. If your response contains data that you do not want to be released to the
public, you should identify the data for redaction. You should include a corrective actions plan
for agreed-upon actions, including milestone dates. We have no objections to the further release
of this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Dan Engelberg at
(202) 566-0830 or engelberg.dan@epa.gov.
EPA Needs to Further Improve How It Manages                                                                                    12-P-0253
Its Oil Pollution Prevention Program


                                     Table of Contents 

Chapters
   1    	Introduction ..........................................................................................................      1


          Purpose ................................................................................................................    1     

          Background ..........................................................................................................       1     

          Noteworthy Achievements....................................................................................                 5     

          Scope and Methodology ......................................................................................                6


   2 	 EPA Has Limited Oversight of Facilities Regulated by Its 

       Oil Pollution Prevention Program .......................................................................                       9


          EPA’s Limited Knowledge of Facilities Regulated by the Oil Pollution 

               Prevention Program Hinders Oversight .......................................................                           9

          EPA’s Limited Knowledge Prevents It from Assessing the Overall 

               Effectiveness of the Oil Pollution Prevention Program ................................                                11 

          EPA Cannot Effectively Establish National Trends in Compliance 

               History for Known SPCC Facilities ..............................................................                      13 

          Conclusion ...........................................................................................................     15     

          Recommendations ...............................................................................................            15     

          Agency Response and OIG Evaluation ................................................................                        16 


   Status of Recommendations and Potential Monetary Benefits..............................                                           18 




Appendices
   A	     SPCC Rule Compliance Dates and SPCC Facility

          Substantial Harm Criteria ..................................................................................               19 


   B	     Agency Response From OSWER and OECA...................................................                                     21 


   C      Agency Response From OSWER and OECA: Attachment A .........................                                                25 


   D      Agency Response From OSWER and OECA: Attachment B .........................                                                39 


   E      Agency Response From Region 5 ....................................................................                         48 


   F      	Distribution .........................................................................................................    50 

                                            Chapter 1

                                             Introduction
Purpose
                 We performed this evaluation in response to a request from the House Committee
                 on Transportation and Infrastructure. We addressed the following questions:

                      	 What steps has the U.S. Environmental Protection Agency (EPA) taken to
                         ensure the quality and consistency of Spill Prevention, Control, and
                         Countermeasure (SPCC) Plans and Facility Response Plans (FRPs)?

                      	 How does EPA track Clean Water Act (CWA) Section 311 violations and
                         violators in order to manage its oil pollution program?

Background
                 CWA Section 3111 prohibits the discharge of oil or hazardous substances into or
                 upon U.S. navigable waters,2 adjoining shorelines, or other areas identified in the
                 statute, in quantities that may be harmful. In recent years, a number of oil spills
                 have had significant impacts on the environment. For example:

                      	 In June 2004, a flow line ruptured in Wyoming, resulting in a spill of
                         25,074 gallons of oil that contaminated 6 miles of the North Fork Powder
                         River and adversely impacted wildlife, habitat, and vegetation.

                      	 On more than 35 occasions between January 2003 and October 2008,
                         more than 1,314,600 gallons of oily water and crude oil were allegedly
                         released from production fields in Wyoming, resulting in an observable
                         film, sheen, or discoloration on the surface of the impacted water or
                         shoreline. The spills resulted in the pollutants being discharged into the
                         tributaries or drainages of Silver Tip Creek and Salt Creek, which,
                         respectively, are tributaries to the Clarks Fork and Powder Rivers.

                      	 In June 2006, 142,800 gallons of oil allegedly spilled from a containment
                         berm located on the edge of the Corpus Christi Ship Channel. The Corpus
                         Christi Ship Channel, which flows from Tule Lake into Corpus Christi
                         Bay and then into the Gulf of Mexico, is heavily utilized by barge and
                         commercial ship traffic.


1
  “Oil and Hazardous Substance Liability” (33 U.S.C. 1321); also referred to as Section 311 of the Federal Water 

Pollution Control Act as amended (also known as Clean Water Act). 

2
  The SPCC regulation defines “navigable waters” by referring to Section 502(7) of the Federal Water Pollution

Control Act, which states that navigable waters are waters of the United States, including territorial seas. 



12-P-0253                                                                                                            1
                 CWA Section 311 and Federal Responsibilities

                 CWA Section 311 authorizes the U.S. President to establish regulations for
                 preventing, preparing for, and responding to oil spills. In 1991, Executive Order
                 127773 delegated responsibilities for spill prevention and control, contingency
                 planning, and equipment inspection activities to several agencies, including EPA,
                 the U.S. Department of the Interior (DOI), the U.S. Department of Transportation
                 (DOT), and the department in which the U.S. Coast Guard operates (currently the
                 U.S. Department of Homeland Security).

                 Under Executive Order 12777, EPA was delegated responsibilities to regulate
                 non-transportation-related onshore facilities that could reasonably be expected to
                 discharge oil into navigable waters of the United States or adjoining shorelines.
                 DOI was delegated responsibilities for offshore facilities (including facilities on
                 any inland waters); DOI’s Bureau of Ocean Energy Management, Regulation, and
                 Enforcement (formerly the Minerals Management Service) implements these
                 activities.4 DOT was delegated similar responsibilities for vessels, transportation-
                 related onshore facilities, and deepwater ports. DOT’s Pipeline and Hazardous
                 Materials Safety Administration implements these activities for the department.5
                 The Coast Guard’s responsibilities include inspecting vessels and conducting
                 periodic drills to assess the capability of onshore and offshore facilities located in
                 the coastal zone to remove discharged oil and hazardous substances.

                 In 1994, DOI, DOT, and EPA agreed to a memorandum of understanding
                 whereby DOI retained jurisdiction over facilities located seaward of the coastline.
                 DOI redelegated responsibility for non-transportation-related offshore facilities
                 located landward of the coastline to EPA (this includes facilities located on any
                 inland waters). DOI also redelegated responsibility for transportation-related
                 facilities, including pipelines, located landward of the coastline to DOT.

                 EPA’s Oil Pollution Prevention Program

                 EPA’s oil pollution prevention program, or CWA Section 311 program, is not
                 delegable to states and tribes. EPA’s CWA Section 311 program regulates
                 facilities through the SPCC Rule, which EPA initially issued in 1973. The SPCC
                 Rule, which also includes regulations for FRP facilities (discussed later in this
                 section), establishes procedures, methods, and equipment requirements for facility
                 owners and operators to prevent oil discharges from non-transportation-related
                 facilities. The SPCC Rule applies to non-transportation-related facilities with an

3
  Executive Order 11548 (35 Federal Register 11677, July 22, 1970) was superseded by Executive Order 11735
(38 Federal Register 21248, August 7, 1973) and then superseded by Executive Order 12777 (56 Federal Register
54757, October 22, 1991).
4
  Bureau of Ocean Energy Management, Regulation, and Enforcement requirements for spill response plans for
facilities located seaward of the coastline, including associated pipelines, are located in the Code of Federal
Regulations (CFR) at 30 CFR 254.
5
  Pipeline and Hazardous Materials Safety Administration requirements for spill response plans submitted to the
administration for onshore transportation-related facilities are located in 49 CFR 194.


12-P-0253                                                                                                         2
                 aboveground oil storage capacity greater than 1,320 U.S. gallons or a completely
                 buried storage capacity greater than 42,000 U.S. gallons. The SPCC Rule only
                 applies to facilities that, due to their locations, could reasonably be expected to
                 discharge oil in quantities that may be harmful into or upon navigable waters or
                 adjoining shorelines.

                          Plans for SPCC Facilities

                          The SPCC Rule requires regulated facilities to prepare oil spill pollution
                          prevention plans (SPCC Plans) that outline procedures, methods, and
                          equipment to prevent spills from occurring, and countermeasures to
                          address the effects of an oil spill. EPA estimates that approximately
                          640,000 facilities meet these criteria. Code of Federal Regulations (CFR),
                          in 40 CFR Part 112, provides the requirements for all SPCC Plans. The
                          regulation includes both general requirements for all facilities and specific
                          requirements organized according to the type of oils stored (petroleum oils
                          versus nonpetroleum oils, animal fats, and vegetable oils) and facility type
                          (e.g., onshore versus offshore, production versus bulk storage). The SPCC
                          Rule generally does not require all facilities to identify themselves to
                          EPA,6 but requires a subset of higher-risk SPCC facilities—known as FRP
                          facilities—to submit their preparedness Plans to the Agency.

                          Plans for FRP Facilities

                          In 1994, EPA established requirements for certain facilities to prepare and
                          submit FRPs for responding to a worst-case discharge of oil and to a
                          substantial threat of such a discharge (FRP Rule, see 40 CFR 112.20 and
                          112.21). These requirements apply to a subset of higher-risk SPCC
                          facilities for which a discharge of oil could reasonably be expected to
                          cause substantial harm to the environment (appendix A, figure A-1 shows
                          the criteria for “substantial harm”).7 The number of FRP facilities EPA is
                          aware of represents less than 1 percent of the estimated universe of
                          approximately 640,000 SPCC-regulated facilities.8 All SPCC facilities
                          self-certify whether the FRP requirements apply based on spill history,
                          lack of adequate secondary containment, and proximity to drinking water
                          intakes and/or environmentally sensitive habitats.

                          If the FRP requirements apply, the facility is required to prepare and
                          submit an FRP to the appropriate EPA Regional Administrator for review

6
  SPCC facilities must self-identify to EPA and the state per 40 CFR 112.4 within 60 days whenever a facility has
discharged more than 1,000 U.S. gallons of oil in a single discharge as described in 40 CFR 112.1(b), or discharged
more than 42 U.S. gallons of oil in each of two discharges as described in 40 CFR 112.1(b), occurring within any
12-month period.
7
  EPA developed the “substantial harm” criteria in response to directives in the Oil Pollution Act of 1990, which
amended the CWA. The discharge of oil must be into or on U.S. navigable waters or adjoining shorelines.
8
  EPA, Office of Emergency Management/Abt Associates, Inc., Regulatory Impact Analysis for the 2008 and 2009
Final Amendments to the Oil Pollution Prevention Regulations (40 CFR 112): Volume I, 2009.


12-P-0253                                                                                                         3
                          and, in cases of “significant and substantial harm” facilities, approval.
                          EPA also has the discretion to require an owner or operator of non-
                          transportation facilities to prepare and submit an FRP to the Agency. The
                          FRP must, for example, identify the individual with full authority to
                          implement removal actions at the facility and the resources available to
                          remove a discharge, and describe the training, equipment testing, and
                          response actions of persons at the facility.9

                          Deadlines for SPCC Rule Compliance

                          During 2002–2010, EPA finalized several amendments to the SPCC Rule.
                          According to EPA, the majority of post-2002 amendments were designed
                          to streamline and tailor requirements. The October 2010 compliance date
                          amendment finalized the dates by which regulated facilities must amend or
                          prepare and implement SPCC Plans to comply with the revised SPCC
                          regulations (appendix A, table A-1).10 Offshore drilling, production, and
                          workover facilities (or any facility containing an offshore component), as
                          well as onshore facilities that must submit FRPs, were required to amend
                          or prepare and implement a Plan by November 10, 2010. If these types of
                          facilities were in operation on or before August 16, 2002, they had to
                          amend and implement the amended Plans by November 10, 2010. If these
                          types of facilities were in operation after August 16, 2002, but before
                          November 10, 2010, they had to prepare and implement an SPCC Plan by
                          November 10, 2010. For all other facilities, EPA extended the compliance
                          date to prepare or amend and implement an SPCC Plan until
                          November 10, 2011. Most facilities that begin operation after
                          November 10, 2011, will have to prepare and implement a plan before
                          commencing operations; production facilities must prepare and implement
                          a plan within 6 months of beginning operations.

                          EPA Inspections and Enforcement of SPCC and FRP Facilities

                          EPA headquarters (Office of Enforcement and Compliance Assurance
                          (OECA) and Office of Solid Waste and Emergency Response (OSWER))
                          and the 10 regional offices implement EPA’s CWA Section 311 program.
                          The headquarters offices are responsible for national program and
                          enforcement policy, implementation, training, national coordination, and
                          rulemaking. The regions implement and enforce the program by
                          conducting inspections, providing outreach/compliance assistance, and
                          pursuing enforcement actions to ensure that facilities comply with the
                          SPCC and FRP regulations, and address noncompliance. EPA can only
                          inspect the facilities it knows about because SPCC facilities are not

9
 EPA’s requirements for FRPs can be found in 40 CFR 112.20(h) and 40 CFR 112, Appendix F. 

10
  75 Federal Register 63093–103 (Thursday, October 14, 2010). At the time that we were preparing this report, 

EPA extended the SPCC Rule compliance date for owners or operators of farms from November 10, 2011, to

May 10, 2013 (76 Federal Register 72120–24). 



12-P-0253                                                                                                         4
                   required to submit their Plans to EPA or otherwise identify themselves to
                   the Agency.

                   During an inspection, EPA inspectors should confirm that the facility
                   meets the applicability criteria for the SPCC Rule, has the procedures and
                   equipment in place, and has an SPCC Plan containing the necessary
                   information required under 40 CFR Part 112. For example, as of
                   November 2011, all Plans must include facility diagrams, a description of
                   employee training procedures, security measures, secondary containment
                   structures, and recordkeeping procedures for facility inspections and tests.
                   EPA regional oil program staff inspects the facility, reviews the SPCC
                   Plan, and examines how the Plan is implemented at the facility. During
                   fiscal years (FYs) 2007–2010, EPA’s regional offices inspected
                   approximately 3,700 facilities for compliance with the SPCC Rule.

                   FRP facilities, which are also required to have SPCC Plans, are typically
                   inspected by regional oil program staff and may also be subject to an
                   unannounced exercise. For example, EPA regions are supposed to conduct
                   triennial Government Initiated Unannounced Exercises at FRP facilities as
                   outlined in national guidelines. These exercises are designed to randomly
                   evaluate a facility’s ability to activate its response plan and respond to a
                   simulated discharge incident. The unannounced exercises are limited to
                   10 percent of plan holders per region per year. During FYs 2007–2010,
                   EPA regional offices inspected 946 FRP facilities; approximately
                   34 percent (320) of these inspections were unannounced exercises.

                   Inspectors identify deficiencies based on the Plan review and inspection,
                   as well as whether the measures described in the Plans are implemented at
                   the facility. During FYs 2007–2010, approximately 55 percent of the
                   inspected facilities were identified as not in compliance with SPCC
                   regulations at the time of inspection. Regions evaluate whether the
                   violation warrants a penalty based on a variety of factors, including the
                   seriousness of the violation and prior violation history at the facility.
                   Based on these factors, EPA may issue an expedited settlement agreement
                   (ESA) for minor and easily correctable SPCC violations, an administrative
                   penalty order, or a referral to the U.S. Department of Justice for more
                   serious violations.

Noteworthy Achievements
            In September 2009, EPA’s OSWER published a strategic plan for the oil program.
            The strategic plan addresses data needs, compliance, and implementation of the
            oil spill program, and includes oil program measures. OSWER created several
            guidance documents for facility owners and operators, and made them available
            on its public website. The 2005 SPCC Guidance for Regional Inspectors provides
            insight to facility owners and operators on what inspectors look for during an


12-P-0253                                                                                      5
                 inspection, and guidance on compliance with the rule requirements. The 2010
                 Facility Owner/Operator’s Guide to Oil Pollution Prevention outlines the
                 information that must be included in SPCC Plans according to the amended SPCC
                 Rule. The Facility Response Planning Compliance Assistance Guide and the
                 National Response Team’s Integrated Contingency Plan Guidance11 are other
                 documents published to assist facilities in complying with regulatory
                 requirements.

                 EPA Regions 3 and 6 have used geographic information systems (GIS) to
                 discover or verify the location and classification of SPCC and FRP facilities. In
                 2009, Region 3 conducted a GIS study to map known FRP facilities located next
                 to sensitive areas, waters, and drinking water intakes. Region 3 identified eight
                 “substantial harm” facilities that could pose a “significant and substantial harm”
                 to the environment in the event of an oil spill. Region 3 plans to conduct
                 inspections in FY 2012 to make a final determination as to whether these facilities
                 should be reclassified as “significant and substantial harm” facilities.

Scope and Methodology
                 We conducted this evaluation in accordance with generally accepted government
                 auditing standards. Those standards require that we plan and perform the
                 evaluation to obtain sufficient, appropriate evidence to provide a reasonable basis
                 for our findings and conclusions based on our review objectives. We believe that
                 the evidence obtained provides a reasonable basis for our findings and
                 conclusions based on our evaluation objectives. We performed our review from
                 August 2010 to June 2011.

                 We reviewed CWA Section 311, federal oil pollution prevention regulations, EPA
                 policies and guidance documents, and relevant reports by the U.S. Government
                 Accountability Office (GAO). We conducted interviews at EPA headquarters with
                 OECA, Office of General Counsel, and OSWER personnel. We also interviewed
                 oil program staff and managers from Regions 3, 5, 6, and 10. During our
                 interviews, we used a standard set of questions that focused on the regions’
                 respective oil programs, compliance with and enforcement of CWA Section 311,
                 SPCC and FRP universes, oil prevention and response plans, inspections, and
                 databases used to track facilities.

                 To evaluate individual regional oil programs, we sent information requests to all
                 regional oil program managers in October 2010. Across the 10 regions, we
                 collected information on regional guidance and policies for their oil programs,

11
  The National Response Team’s Integrated Contingency Plan Guidance was developed and published by EPA in
coordination with the U.S. Coast Guard, the Occupational Safety and Health Administration, the Office of Pipeline
Safety (DOT), and Bureau of Ocean Energy Management, Regulation, and Enforcement (DOI). The guidance
provides a mechanism to consolidate multiple plans that a facility may have prepared to comply with various
regulations issued by the agencies above into one functional emergency response plan, i.e., the Integrated
Contingency Plan (ICP).


12-P-0253                                                                                                           6
                 factors used to target facilities for inspections, inspector resources, SPCC and
                 FRP inspections and enforcement actions during FYs 2007–2010, and databases
                 regions use to manage their oil pollution prevention programs. We also analyzed
                 the national Enforcement Compliance History Online database to determine the
                 number of CWA Section 311 enforcement actions with a violation pertaining to
                 the SPCC Plan or FRP during FYs 2005–2010.

                 To gain a general understanding of Plan elements, we reviewed spill prevention
                 and response Plans from 20 facilities located in EPA Region 6 (14 Plans were
                 from facilities identified by the team and 6 were supplied by the region from its
                 files). Region 6 informally requested Plans from these facilities and provided us
                 with 15 SPCC Plans, 1 FRP, and 4 Integrated Contingency Plans (ICPs)12 to
                 review. Because our sample of facilities was not statistically valid, we cannot
                 generalize the results of this analysis of 20 Plans to the program as a whole.

                 We reviewed the 20 plans for their quality and consistency based on the Office of
                 Emergency Management’s (OEM’s) national inspection checklist to determine
                 whether the Plans generally fulfilled the checklist criteria. The items in this
                 checklist will be required of all plans in November 2011. The team focused on
                 38 items from the checklist to form the basis of its review of the quality and
                 consistency of prevention Plans. Using requirements from 40 CFR 112, EPA’s
                 Civil Penalty Policy for CWA Sections 311(b)(3) and 311(j), interviews with
                 regional programs, and our professional judgment, we categorized requirements
                 as either “administrative” or “red flag” items. An EPA inspector would take
                 special note of “red flag” items (e.g., lack of secondary containment or
                 management approval of the prevention plan) during an inspection of an SPCC
                 facility.

                 We did not make a determination regarding facilities’ compliance status.
                 Compliance determinations are based on several considerations, such as content
                 of Plans, inspections, and training records. We only reviewed the content of the
                 Plans. The team did not verify the information within the Plans or conduct on-site
                 inspections of the facilities that submitted Plans for our review.

                 Prior Audit Coverage

                 In 2008,13 GAO evaluated how EPA regions implement the SPCC program, the
                 data EPA uses to implement and evaluate the program, and whether some states’
                 aboveground storage tank programs suggest ways to improve EPA’s program.
                 GAO concluded that without more comprehensive data on the universe of

12
   40 CFR 112.7 allows a facility to prepare a plan equivalent to an SPCC Plan, provided it meets all of the
applicable requirements listed in 40 CFR 112.7 and is supplemented with a section cross-referencing the location of
requirements from 40 CFR 112.7 and the equivalent requirements in the other prevention plan. Examples of “other
prevention Plans” include FRPs and ICPs.
13
   GAO, Aboveground Oil Storage Tanks: More Complete Facility Data Could Improve Implementation of EPA’s
Spill Prevention Program, GAO-08-482, April 30, 2008.


12-P-0253                                                                                                         7
            regulated facilities, EPA cannot employ a risk-based approach to target
            inspections to those facilities that pose the greatest risks of oil spills into or upon
            navigable waters. Similarly, incomplete information prevents EPA from
            determining whether the SPCC program is achieving its goals. GAO
            recommended that EPA (1) analyze options for obtaining data on SPCC-regulated
            facilities, including a tank registration program; (2) develop guidance for EPA
            regions on how to better coordinate with states on SPCC issues; and (3) finish
            developing performance measures and obtain data to evaluate SPCC program
            effectiveness. As of January 2012, the status of these recommendations remained
            “open.”




12-P-0253                                                                                         8
                                  Chapter 2

 EPA Has Limited Oversight of Facilities Regulated by 

        Its Oil Pollution Prevention Program 

            Although EPA has taken steps to improve its program to prevent oil spills from
            known facilities to waters of the United States, the Agency remains largely
            unaware of the identity and compliance status of the vast majority of CWA
            Section 311 regulated facilities. Effective program management requires that EPA
            know the identity and nature of the facilities it is responsible for regulating. The
            steps EPA has taken to improve the quality and consistency of SPCC Plans and
            FRPs include publishing guidance, providing training for inspectors and the
            regulated community, providing compliance assistance, and promoting consistent
            enforcement across EPA regions. EPA has also improved its ability to track
            individual CWA Section 311 violations and violators in a new national database.
            However, EPA still does not have knowledge of most of the facilities it is
            responsible for regulating. In addition, Agency data systems cannot exchange data
            with each other, and lack consistent and sufficient codes to categorize deficiencies
            and noncompliance. These data systems limitations prevent EPA from capturing
            the full details of a violator’s history or identifying trends in compliance and
            enforcement. As a result, EPA cannot assess the success of steps it has taken to
            improve the quality and consistency of SPCC Plans, FRPs, or the oil pollution
            prevention program as a whole. Therefore, the Agency is unable to assess the
            degree to which its measures will help prevent future oil spills or mitigate their
            associated impacts.

EPA’s Limited Knowledge of Facilities Regulated by the Oil Pollution
Prevention Program Hinders Oversight
            EPA’s lack of knowledge of the identity of the vast majority of regulated facilities
            is a critical deficiency in its management of its CWA Section 311 program. EPA
            cannot develop a complete inventory of SPCC facilities because SPCC
            regulations do not contain a formal mechanism to collect data about facilities, and
            most regulated facilities are not required to identify themselves to EPA.

            Although EPA estimated that approximately 640,000 facilities are potentially
            subject to regulation under the SPCC Rule, the Agency does not have information
            on the owners and locations of the vast majority of these facilities. OEM estimates
            that prior to the launch of the National Oil Program Database, the individual
            regional SPCC/FRP databases contained fewer than 25,000 records for facilities
            regulated by CWA Section 311 (representing approximately 4 percent of the
            estimated SPCC universe). Region 6 recently discovered 45 previously unknown
            SPCC-regulated oil and gas production facilities in New Mexico while conducting
            inspections at known facilities. In some cases, SPCC facilities are identified only
            after an oil discharge.


12-P-0253                                                                                      9
            Only the SPCC facilities also covered under the FRP requirements are required to
            report their presence to the Agency by submitting their FRPs for review. EPA
            regions reported that they have received a total of 4,897 FRPs. However, regions
            admit they are still missing Plans for many FRP facilities or have not received
            updated Plans. Region 10 staff and managers said 450–500 FRP facilities operate
            in their region. They estimate that an additional 225–250 unknown facilities also
            operate in the region, but have not submitted Plans for review. At the time of our
            evaluation, Region 6 was aware of six “significant and substantial harm” FRP
            facilities in New Mexico that have changed ownership but have not submitted
            updated Plans to the Agency.

            As of May 2011, OEM staff said EPA has been unable to address the 2008 GAO
            recommendation to analyze options for obtaining key data about the regulated
            universe. Other priorities, such as the 2010 BP Deepwater Horizon oil spill and
            rulemaking efforts for Subpart J of the National Contingency Plan and the SPCC
            Rule, delayed efforts to address the recommendation. EPA reported that it has
            made strides in working with the states, the U.S. Department of Commerce, and
            the U.S. Department of Agriculture in identifying information on facilities during
            the regulatory action development process.

            EPA regions have attempted to increase their knowledge of SPCC and FRP
            facilities by using state aboveground storage tank databases, industry databases
            (e.g., Dun and Bradstreet), and other federal agency databases. About half of U.S.
            states and territories have databases with information about registered tanks
            operating in their individual states. State tank registration programs may have
            more information than EPA about tanks and facilities located in their states, but
            state databases are incompatible with EPA’s databases for identifying regulated
            facilities. Other challenges to using state databases include states using different
            facility identification numbers, not tracking information about tanks that store
            animal fat and vegetable oil, or having higher capacity thresholds than the federal
            SPCC/FRP program (which would not capture the entire tank universe regulated
            by EPA). The manner in which states categorize the product a tank stores is
            sometimes not detailed enough to determine whether the facility should be
            regulated under the SPCC/FRP programs.

            Compiling a list of facilities that come under the SPCC Rule is complicated
            because limited or incomplete facility data lead to difficulties in determining the
            facility’s proximity to U.S. navigable waters, the type and capacity of product
            stored, and facility type (i.e., production or storage). For example, Region 9 staff
            stated that a facility could assert that the CWA Section 311 regulations do not
            apply to it because it believes there is no proof that the stream or waterway that
            could be impacted by a spill is a water of the United States. The burden on EPA
            regions to prove a spill may discharge to a water of the United States may be
            resource intensive and may hinder enforcement activities.




12-P-0253                                                                                      10
EPA’s Limited Knowledge Prevents It from Assessing the Overall
Effectiveness of the Oil Pollution Prevention Program
            EPA has taken a number of steps to improve the quality and consistency of
            prevention and response Plans. EPA has tailored and streamlined regulatory
            requirements for certain qualified facilities, published guidance on preparing and
            implementing prevention and response Plans, provided compliance assistance at a
            facility owner/operator’s request, and pursued enforcement actions for violations.
            EPA has also reviewed and approved FRPs from facilities as required by the
            regulations. Further, to help ensure that inspections are conducted in a uniform
            manner, inspectors use standardized SPCC and FRP inspection checklists. EPA is
            currently drafting a national enforcement and implementation strategy for its oil
            pollution program (SPCC and FRP). EPA tracks the number of SPCC and FRP
            facilities that return to compliance each year as part of the program’s performance
            measures. However, EPA’s limited knowledge of facilities regulated by the oil
            pollution prevention program prevents the Agency from assessing the overall
            effectiveness of the program. EPA cannot determine the extent to which these
            steps have improved the quality and consistency of prevention and response plans.

            EPA Cannot Determine the Success of Its Steps to Enhance Quality
            and Consistency of Plans

            OEM has taken several steps to improve the quality and consistency of SPCC
            Plans prepared by facilities. OEM has published guidance documents describing
            the regulatory requirements of the SPCC/FRP programs to owners and operators
            of regulated facilities. According to EPA, it utilizes its website, outreach seminars
            (through conferences and webinars), and training sessions as the principal means
            of communication with these facilities. Because of the limited knowledge about
            facilities regulated by the oil pollution program, EPA cannot direct its guidance
            and outreach efforts to more than 96 percent of the estimated regulated facility
            owners and operators.

            While EPA can measure the effectiveness of these efforts for known SPCC
            facilities, EPA cannot assess the overall effectiveness of its oil pollution
            prevention program for the regulated universe. EPA can only assess the quality or
            consistency of prevention and response plans at known facilities. SPCC facilities
            do not have to submit their SPCC Plans to EPA for review and approval. EPA
            reviews SPCC Plans only as part of an official inspection or enforcement
            investigation. EPA has only inspected 3,700 of the estimated 640,000 SPCC
            facilities (less than 1 percent) in the past 4 years nationwide. EPA filed more than
            1,000 CWA Section 311 enforcement actions against facilities during FYs 2005–
            2010 for failure to have an adequate SPCC Plan. These actions represent roughly
            53 percent of all CWA Section 311 enforcement cases EPA pursued during this
            time frame.




12-P-0253                                                                                      11
            EPA eliminated a measure of accountability when it streamlined requirements for
            SPCC Plans from facilities that satisfy criteria listed in 40 CFR 112.3(g)
            pertaining to reportable spill history and oil storage capacity. Facilities meeting
            these criteria are no longer required to have their SPCC Plans certified by a
            professional engineer, which provided an element of accountability that the Plan
            contained information required by 40 CFR 112.

            EPA has a better idea of the effectiveness of its efforts to enhance the quality and
            consistency of FRPs because facilities must submit their plans to the Agency for
            review. Each facility self-certifies that it is an FRP facility and the degree of harm
            it poses to sensitive environments and drinking water supplies (appendix A,
            figure A-1). According to EPA, regional staff review all FRPs; however, only
            plans from “significant and substantial harm” FRP facilities must be approved by
            EPA.

            In our review of 20 oil prevention Plans (which included SPCC Plans, FRPs, and
            ICPs), we observed that the overall quality and consistency of the Plans varied.
            The facility’s initial date of operations, according to EPA, is a key parameter
            inspectors use to determine the date by which facilities had to comply with
            regulations (i.e., prepare or amend an existing plan). Only six plans (30 percent)
            contained this key parameter. Some Plans were missing administrative items, but
            more than half (11 of 20) were missing significant components, e.g., no evidence
            that facility management approved the Plan, no listing of who was accountable for
            discharge prevention at the facility, missing or incomplete facility diagrams, and
            no information addressing bulk storage containers or secondary containment.
            Although we did not review the 20 Plans for compliance with regulations, these
            Plans likely needed to be amended by November 2011 to be in compliance with
            the SPCC Rule amendments.

            EPA Is Taking Steps to Promote Consistent Enforcement

            EPA has taken a number of steps to increase consistency in regional enforcement
            decisions to address similar types of noncompliance. Both OEM and OECA hold
            monthly conference calls with regional oil program technical staff, program
            managers, and enforcement staff and managers. To promote consistent
            interpretation of the regulations among regions, OEM developed a guidance
            document and provides mandatory 40-hour training for regional SPCC and FRP
            inspectors. To promote consistent enforcement, OECA published a civil penalty
            policy for the CWA Section 311(b) and 311(j) programs. Additionally, OECA is
            working with OEM to develop an enforcement strategy for the oil program.

            As required by EPA Order 3500.1, OEM developed a training program specific to
            the SPCC and FRP programs for regional inspectors, which includes requirements
            for specialized training. Some of the specialized training is provided during
            monthly calls. OEM also prepared a standardized national inspection checklist for
            inspecting SPCC facilities.



12-P-0253                                                                                       12
                  All 10 regions use the 2005 SPCC Guidance for Regional Inspectors, which OEM
                  issued to make inspections and interpretation of the regulations more consistent
                  among regions. However, inconsistencies in what the guidance document outlines
                  versus what the rule requires will remain until OEM revises this guidance to
                  reflect recent amendments to the SPCC Rule. Six of the 10 regions also told us
                  that they supplement the guidance with regional-level standard operating
                  procedures for program implementation.

                  The recent oil spills in the Gulf of Mexico and Michigan caused EPA to delay
                  several policies in development at the time, including revisions to the national
                  inspection checklist for the SPCC program, the SPCC guidance revisions, and
                  finalization of the draft national inspection targeting strategy. OECA and OSWER
                  are evaluating the development of an enforcement strategy for the oil pollution
                  prevention program (SPCC and FRP), including targeting of inspections and
                  enforcement. OECA and OSWER said they are continuing work on the
                  enforcement strategy through summer 2011.

                  To bring more facilities back into full compliance, 9 of the 10 EPA regions have
                  approval from headquarters to issue ESAs for certain SPCC violations.14 Eight of
                  the 10 EPA regions also have approval from EPA headquarters to issue ESAs for
                  oil spills/discharges. From FY 2005 to FY 2010, EPA resolved approximately
                  72 percent of CWA Sections 311(j) and 311(b) violations with ESAs.

                  During the course of the evaluation, the Office of Inspector General (OIG) noted
                  that one EPA region had fewer FRP enforcement actions, and we included this
                  information in the draft report. In response, this region clarified its position
                  regarding FRP enforcement options, and OECA agreed with the region’s
                  assessment of enforcement authority.

EPA Cannot Effectively Establish National Trends in Compliance
History for Known SPCC Facilities
                  EPA cannot effectively track and report CWA Section 311 violations and
                  violators. EPA currently lacks a comprehensive national oil program database that
                  incorporates data maintained in regional databases and that exchanges data with
                  other EPA (enforcement and compliance) databases. EPA manages its oil
                  pollution prevention program by tracking CWA Section 311 violations and
                  violators through various national and regional-level databases. Improved
                  capabilities of these databases should allow EPA to better determine national
                  trends and establish full and detailed compliance histories of inspected facilities,
                  their violations, and the enforcement actions taken against them.




14
  The ESA process is a voluntary tool that some regions use to quickly address small, easily correctable violations;
other regions may use different tools to achieve the same purpose.


12-P-0253                                                                                                         13
            EPA’s existing databases can produce a limited compliance and enforcement
            history for SPCC and FRP facilities because its databases only track and monitor
            known facilities. Regions 3, 5, 6, and 10 have regional databases to manage and
            track known SPCC and FRP facilities operating in their respective regions; these
            databases often contain more information than what is reported to national
            databases. Seven of the 10 regions reported that they can use their region-specific
            database to produce a compliance history for SPCC and FRP facilities.

            OEM created a national Microsoft Access database specifically for the oil
            program in 2005, which 7 of 10 regions use to track compliance and certain types
            of enforcement actions. According to the Agency’s responses to our information
            request, eight regional oil programs also use the Integrated Compliance
            Information System (ICIS), the Agency’s national database for tracking
            compliance and enforcement actions for many programs, including the CWA
            Section 311 program. At the time of our evaluation, these two national databases
            did not exchange information. Regions said they could avoid duplicative data
            entry and management efforts if the national Access database was able to
            exchange data with ICIS after the Access database was converted to an Oracle
            platform.

            OEM personnel stated that the transition from the Access database to the Oracle
            platform occurred in mid-August 2011 (after we released our draft report to the
            Agency). This first version of the National Oil Database does not exchange data
            with ICIS, but OSWER and OECA anticipate that it will be capable of doing so in
            FY 2012. This capability should eliminate duplicative data entry.

            The National Oil Database does not uniformly specify the deficiency or violation
            being addressed. Although OEM records deficiencies in a comment field, the
            quality and consistency of data entered by regional inspectors varies. OEM has
            not established codes that would allow the Agency to report trends in deficiencies
            and reasons for facilities’ noncompliance. Deficiencies could include missing
            SPCC Plan or FRP requirements, or other missing regulatory requirements such
            as lack of secondary containment. As a result, we were unable to determine the
            quality or consistency of Plans from OEM’s database. At the time of the
            evaluation, the database could not identify trends in compliance that would help
            with program management decisions (e.g., industries on which to focus
            compliance assistance efforts).

            SPCC and FRP facility compliance and enforcement history is limited to the
            information entered into EPA’s databases. Although OECA’s Office of
            Compliance said it issues annual plans to improve data quality, existing
            enforcement data in ICIS is incomplete. We found that 209 CWA Section 311
            enforcement case records (approximately 11 percent) from FYs 2005–2010 had
            no information in the “violations” field. Only Region 10 included this information
            in the records for each of its enforcement cases. We also found that Region 7
            inconsistently categorized the “Laws and Section” used to pursue its SPCC and



12-P-0253                                                                                    14
            FRP enforcement cases. For 22 of Region 7’s enforcement cases (approximately
            12 percent of its total enforcement cases during FYs 2005–2010), the “Case
            Summary” field contained additional information not included in the “Laws and
            Section” field. Incomplete or inconsistent enforcement data entry further limits
            EPA’s ability to produce accurate compliance histories for known facilities.

Conclusion
            EPA lacks reasonable assurance that oversight efforts for the CWA Section 311
            program effectively prevent and improve the response to future oil spills or
            mitigate the associated impacts. The Agency has provided guidance to owners and
            operators of SPCC and FRP facilities, but does not know how effective that
            guidance has been in improving quality and consistency of Plans with federal
            regulations. Because the SPCC regulations do not require facilities to notify EPA
            that they are regulated, the Agency cannot identify every facility in the regulated
            universe. While EPA has recently transitioned to using a national oil program
            database, the database does not yet exchange data with other EPA databases and
            can only produce a limited compliance history for the known facilities. As a
            result, EPA cannot identify trends in compliance that would help with program
            management decisions. Addressing these limitations will improve EPA’s
            management of the CWA Section 311 program.

Recommendations
            We recommend that the Assistant Administrator for Solid Waste and Emergency
            Response, in consultation with the Assistant Administrator for Enforcement and
            Compliance Assurance:

                   1.	 Improve oversight of facilities regulated by EPA’s oil pollution
                       prevention program by:

                       a.	 Developing procedures for updating and issuing new guidance to
                           ensure the regulated community has access to the most current
                           guidance.

                       b.	 Implementing a risk-based strategy toward inspections that
                           identifies unknown SPCC and FRP facilities, and directs
                           inspection resources toward facilities where the potential for spills
                           poses the greatest risks to human health and the environment.

                       c.	 Consistently interpreting regulations and EPA’s authority to
                           enforce regulations.

                       d.	 Producing a biennial public assessment of the quality and
                           consistency of SPCC Plans and FRPs based on inspected facilities.



12-P-0253                                                                                     15
                   2.	 In support of improving oversight, establish a national oil program
                       database that:

                       a.	 Contains a detailed history of compliance and inspections for
                           facilities subject to the SPCC Rule.

                       b.	 Uses comprehensive deficiency and/or compliance codes
                           specifying why a facility was not in full compliance in order to
                           identify and track national trends.

                       c.	 Ensures consistent data entry across all 10 EPA regions.

                       d.	 Exchanges data seamlessly with the Agency’s existing compliance
                           and enforcement databases.

Agency Response and OIG Evaluation
            The Assistant Administrator for Solid Waste and Emergency Response and the
            Assistant Administrator for Enforcement and Compliance Assurance responded to
            our draft report on September 6, 2011 (appendix B). The Agency stressed that,
            given the challenges associated with the magnitude of the regulated universe and
            with limited resources available, the oil pollution prevention program has acted
            through comprehensive rulemaking and program implementation to ensure that
            facilities work to prevent and prepare for oil discharges to the waters of the
            United States. While OSWER agreed that additional improvements and
            efficiencies could be found, it believes that it is implementing an effective
            program to prevent and mitigate oil spills, given its “limited resources.”

            The Agency agreed that if it had data on a larger percentage of the universe, its
            ability to capture and track information on violators and violations would be
            improved. OSWER and OECA are working together to improve communications
            between their data systems to ensure a complete and accurate record of EPA
            actions. The Agency also agreed that it should examine Plans prepared after the
            implementation of recent rulemaking and guidance, which was enacted to
            enhance the quality and consistency of Plans, to determine whether these Plans
            are measurably different.

            The Agency’s comments and our evaluation and responses are in appendices B
            through E. Appendix D only includes the Agency’s comments and not its
            technical edits, which were incorporated into the report where appropriate.
            Region 5’s separate response, sent July 29, 2011, is located in appendix E, but
            does not include the attachment included in its response, as it was determined to
            be enforcement sensitive and not to be released to the public.

            We appreciate the Agency’s in-depth response to the report and the additional
            clarification the Agency provided on the nuances of this program. We


12-P-0253                                                                                       16
            acknowledge that the needs of the oil pollution prevention program may exceed
            the resources EPA currently assigns to the program. However, in our opinion,
            EPA should improve oversight of the oil pollution prevention program. Where
            appropriate, we have incorporated the Agency’s technical comments into the body
            of the report. Our recommendations remain largely unchanged, except for the
            addition of a recommendation, suggested by the Agency, for EPA to assess the
            quality and consistency of Plans.




12-P-0253                                                                               17
                                 Status of Recommendations and
                                   Potential Monetary Benefits
                                                                                                                                  POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                      Planned
    Rec.    Page                                                                                                     Completion   Claimed    Agreed-To
    No.      No.                          Subject                           Status1         Action Official             Date      Amount      Amount

     1       15     Improve oversight of facilities regulated by EPA’s        U        Assistant Administrator for
                    oil pollution prevention program by:                              Solid Waste and Emergency
                         a.     Developing procedures for updating                     Response, in consultation
                                and issuing new guidance to ensure                          with the Assistant
                                the regulated community has access to                       Administrator for
                                the most current guidance.                                  Enforcement and
                                                                                        Compliance Assurance
                         b.     Implementing a risk-based strategy
                                toward inspections that identifies
                                unknown SPCC and FRP facilities, and
                                directs inspection resources toward
                                facilities where the potential for spills
                                poses the greatest risks to human
                                health and the environment.
                         c.     Consistently interpreting regulations
                                and EPA’s authority to enforce
                                regulations.
                         d.     Producing a biennial public
                                assessment of the quality and
                                consistency of SPCC Plans and FRPs
                                based on inspected facilities.

     2       16     In support of improving oversight, establish a            U        Assistant Administrator for
                    national oil program database that:                               Solid Waste and Emergency
                          a.    Contains a detailed history of                         Response, in consultation
                                compliance and inspections for                              with the Assistant
                                facilities subject to the SPCC Rule.                        Administrator for
                                                                                            Enforcement and
                          b.    Uses comprehensive deficiency and/or                    Compliance Assurance
                                compliance codes specifying why a
                                facility was not in full compliance in
                                order to identify and track national
                                trends.
                          c.    Ensures consistent data entry across
                                all 10 EPA regions.
                          d.    Exchanges data seamlessly with the
                                Agency’s existing compliance and
                                enforcement databases.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-P-0253                                                                                                                                           18
                                                                                                Appendix A

                 SPCC Rule Compliance Dates and 

               SPCC Facility Substantial Harm Criteria 

Table A-1: Compliance dates for the SPCC Rule

SPCC facilities that must meet the November 10, 2010, compliance date
A drilling, production or workover facility,
including a mobile or portable facility, located
offshore or with an offshore component; or an          Must...
onshore facility that is required to have and
submit FRPs starting operation...
                                                       Maintain its existing SPCC Plan
On or before August 16, 2002                           Amend and implement the amended SPCC Plan no later
                                                       than November 10, 2010
                                                       Prepare and implement an SPCC Plan no later than
After August 16, 2002 through November 10, 2010
                                                       November 10, 2010
After November 10, 2010 (excluding production          Prepare and implement an SPCC Plan before beginning
facilities)                                            operations
                                                       Prepare and implement an SPCC Plan within 6 months after
After November 10, 2010 (production facilities)
                                                       beginning operations.

SPCC facilities that must meet the November 10, 2011, compliance date
A facility, including a mobile or portable facility,
                                                       Must...
starting operation...
                                                       Maintain its existing SPCC Plan
On or before August 16, 2002                           Amend and implement the amended SPCC Plan no later
                                                       than November 10, 2011

                                                       Prepare and implement an SPCC Plan no later than
After August 16, 2002 through November 10, 2011
                                                       November 10, 2011

After November 10, 2011 (excluding production          Prepare and implement an SPCC Plan before beginning
facilities)                                            operations

                                                       Prepare and implement an SPCC Plan within 6 months after
After November 10, 2011 (production facilities)
                                                       beginning operations.
Source: EPA Office of Emergency Management.




12-P-0253                                                                                                    19
Figure A-1: Process to determine whether an SPCC facility meets the criteria for substantial harm
and needs to prepare an FRP




1
  Calculated using the appropriate formula in Attachment C-III to 40 CFR 112, Appendix C, or a comparable formula. 

2
  For further description of fish and wildlife and sensitive environments, see Appendices I, II, and III to U.S. 

Department of Commerce, National Oceanic and Atmospheric Administration’s, Guidance for Facility and Vessel 

Response Plans: Fish and Wildlife and Sensitive Environments (59 FR 14713, March 29, 1994) and the applicable 

Area Contingency Plan.

3
  Public drinking water intakes are analogous to public water systems as described at 40 CFR 143.2.


Source: 40 CFR 112, Appendix C, Attachment C-I.




12-P-0253                                                                                                        20
                                                                                        Appendix B

            Agency Response From OSWER and OECA

                                         September 6, 2011

MEMORANDUM

SUBJECT:       Environmental Protection Agency’s (EPA) Response to OIG’s Draft Report:
               “EPA Needs to Improve Management Its Oil Pollution Prevention Program”
               Project No. 2010-1360

FROM:          Mathy Stanislaus
               Assistant Administrator for Solid Waste and Emergency Response (OSWER)

               Cynthia Giles
               Assistant Administrator for Enforcement and Compliance Assurance (OECA)

TO:            Wade Najjum
               Assistant Inspector General for Program Evaluation

We appreciate the opportunity to comment on the Office of Inspector General (OIG) draft report
titled, “EPA Needs to Improve Management of Its Oil Pollution Prevention Program” (Project
No. 2010-1360), dated June 29, 2011. Ensuring that EPA’s Oil Pollution Prevention Program is
as effective as it can be is an ongoing agency focus and we appreciate the IG’s review and
recommendations for strengthening this program.

The recent spill events cited in the IG’s report certainly highlight the significant harm and
expense that can be inflicted by oil spills. However, we are concerned that the spills cited in the
report will be inaccurately attributed to a lack of EPA action when that is not the case. Spill
prevention and preparedness for pipelines is under the U.S. Department of Transportation
Pipeline and Hazardous Materials Safety Administration regulatory jurisdiction and the BP
Deepwater Horizon spill is from a facility seaward of the coastline in Bureau of Ocean Energy
Management, Regulation and Enforcement regulatory jurisdiction. As a result, the use of these
examples may imply that EPA’s Oil Pollution Prevention Program was inadequate in preventing
these devastating spills when in reality the program was not applicable to these facilities. We
suggest the IG cite different spills or specifically state in its report that the spills cited are not
from facilities under EPA regulatory jurisdiction for prevention nor do they reflect problems
with EPA’s program.

 OIG Response: We replaced the original spill examples with examples from facilities regulated by EPA
 under its CWA Section 311 program.

When oil spills into waters or onto adjoining shorelines it can have significant, harmful impacts
on the environment, human health, and economic activity. EPA’s federally administered Oil


12-P-0253                                                                                           21
Pollution Prevention Program is designed to prevent oil spills from non-transportation-related
on-shore, and certain offshore, facilities and to assure that oil facility personnel are prepared to
respond if a spill does occur. Given the challenges associated with the magnitude of the regulated
universe with limited resources available, EPA’s Oil Pollution Prevention Program has acted
through comprehensive rulemaking and program implementation to ensure facilities work to
prevent and prepare for oil discharges to the waters of the United States.

While we share most of the IG’s ultimate recommendations on how to make this program more
effective, after reviewing the report, we have identified a number of areas which, in our view,
contain inaccuracies and where we disagree with certain conclusions reached. We have provided
more detailed comments in Attachment A to this memorandum and have also provided a red
line/strike out version of the report in Attachment B for your consideration.

 OIG Response: We clarified certain statements in the report to address EPA’s concerns.

The report concludes that EPA has not implemented a program that can effectively prevent oil
spills or mitigate the effect of those spills and that we lack reasonable assurance that oversight
efforts effectively prevent future oil spills. While we agree that additional improvements and
efficiencies can be found, OSWER believes EPA is carefully implementing a program to prevent
and mitigate oil spills, given the resources available.

The draft report does not adequately account for, or put into context, all the activities that EPA
performs to manage and implement the program given the available resources. The Office of
Emergency Management’s (OEM) Oil Program Strategic Plan (Sept 2009), national training
programs, national program guidance/policy documents, national policies and procedures, and
national program measures (approved by OMS and currently implemented in the oil program)
form the foundation for a centralized program and its continued evaluation. We will continue to
examine this foundation for continuous improvement process changes. Almost 650,000 facilities
are covered by the Oil Pollution Prevention Program and EPA has allocated resources to
particularly target those facilities with the highest potential impact and risks to water, while at
the same time allocating remaining resources to cover the large remaining universe.

 OIG Response: Although a detailed examination of program resources was beyond the scope of this
 evaluation, we recognize the challenges the Agency faces in regulating more than an estimated
 640,000 facilities, most of which are unknown to the Agency. We agree that OEM’s Oil Program
 Strategic Plan, training programs, guidance documents, and program measures create the basis for a
 centralized program. We included the 2009 Oil Program Strategic Plan as a noteworthy
 accomplishment and referenced the national program measures in the body of the report.

As a result, we view the results of these program management activities as a success relative to
our resource allocation. We agree that steps towards program improvement are warranted and
intend to take steps to improve the quality and consistency of plans.

We agree that better universe data would improve our ability to capture and track information on
violators and violations. We also agree that an examination of plans prepared after the
implementation of recent rulemaking and guidance enacted to enhance the quality and
consistency of plans is needed to determine whether there is a measurable difference.



12-P-0253                                                                                             22
 OIG Response: Based on this comment, as well as others, we added a recommendation that the
 Agency produce a biennial assessment of the quality and consistency of SPCC Plans and FRPs based
 on inspected facilities.

While we appreciate OIG’s acknowledgement of our aggressive efforts to improve the quality
and consistency of prevention and response plans, OSWER believes that the data EPA has,
combined with the data available at the state and local levels, provides sufficient information to
understand the scope of the regulated universe, target facilities and industry sectors for
inspections and effectively manage the program. OIG’s report correctly recognizes the
challenges associated with compiling a list of facilities, and how this data translates to program
effectiveness. OSWER and OECA are working together to improve communications of our data
systems to ensure a complete and accurate record of EPA actions.

We have concerns with the review and analysis of the twenty 40 CFR 112 plans obtained in
Region 6. EPA is concerned that the plan reviewers may not have appropriately considered some
of the more complex compliance date implications and therefore may not have reviewed the
plans for the correct plan requirements leading to inaccurate conclusions. The inconsistencies
found by the OIG may be related to whether the plans that were reviewed were developed before
or after EPA’s efforts to enhance the quality and consistency of plans and their actual regulatory
requirements relative to the compliance date. EPA fully expects wide variations in plans across
the extremely wide range of industry sectors subject to the requirements and owners and
operators are given considerable flexibility to tailor their plan to their unique needs. Now that our
regulatory work is complete (and guidance work nearly so), bringing facilities into compliance
with plan requirements is critical to oil spill prevention and preparedness.

 OIG Response: The intent of this Plan review was to check the quality and consistency of Plans for
 requirements under 40 CFR 112. We adjusted the report to address the concerns noted here.

We have concerns about the report’s draft conclusion that there is inconsistent interpretation of
EPA’s enforcement authority by the agency. We respectfully disagree that there is any
inconsistency and would like to discuss this issue further with OIG project personnel. As we
have explained, OECA has confirmed that there is a consistent understanding of FRP
enforceability and we will continue to take enforcement actions to ensure compliance with these
important response planning requirements.

 OIG Response: At the time of our evaluation, one region had an inconsistent interpretation of EPA’s
 enforcement authority. EPA corrected this inconsistency after receiving our draft report, and we revised
 the presentation of this issue based on the additional information provided in the Agency’s responses.

In summary, the draft report’s main recommendations focus on national program centralization,
national database coordination, and outreach. Nearly all of the draft report recommendations are
currently being implemented by current oil pollution prevention program initiatives. As a result,
while we agree that more can be done to improve this program and with most of the corrective
actions recommended, we believe that certain aspects of this draft report may be inaccurate and
misleading and are suggesting certain corrections.




12-P-0253                                                                                               23
 OIG Response: We made changes as appropriate. Although the Agency’s current initiatives are
 noteworthy, our recommendations bring focus to improvements the Agency has not yet undertaken.

We appreciate your efforts and your consideration of our comments as you develop the final
report. If you have any questions or would like to set up a time to discuss these issues, please feel
free to contact Craig Matthiessen in the Office of Emergency Management, OSWER at (202)
564-8016 and Edward Messina in the Office of Compliance, OECA at (202) 564-1191.


Attachments




12-P-0253                                                                                         24
                                                                                            Appendix C

          Agency Response From OSWER and OECA: 

                       Attachment A 

OIG NOTE: The page numbers used in the Agency’s response refer to those in the draft report; during
the editing process, these page numbers may have changed.

EPA’s major comments are detailed below by section and chapter. Specific wording edits are
shown in redline/strike out on the draft Report (see Attachment B). [OIG Note: Attachment B is
included in appendix D of this report]

“At a Glance” Section

EPA agrees with OIG’s analysis that EPA should seek more data about the regulated universe
and should make use of the findings of past inspections better.

This draft report fails to recognize the level of effort and resources required to manage both the
extremely large scope of the program and the large regulated universe (640,000 facilities for
SPCC alone).

 OIG Response: The OIG was limited in the scope of its evaluation objectives by Congress. However,
 we amended this section and other areas of the report where appropriate to better reflect steps the
 Agency has taken to improve the program.

Under “What We Found”

The opening sentence: “EPA has not implemented a program that can effectively prevent oil
spills to navigable waters or mitigate the effect of those spills.”

While we agree improvements can be made, especially in certain data areas, we respectfully
disagree with a conclusion that oil spills cannot be effectively prevented or mitigated under
current program actions.

 OIG Response: We amended the opening sentence to better communicate the conclusion that the
 Agency’s management of the program is limited to those facilities it is aware of, and that the Agency is
 largely unaware of the vast majority of regulated facilities.

The last two sentences:
“Overall, EPA cannot assess the success of steps it has taken to improve the quality and
consistency of SPCC Plans, Facility Response Plans, or the oil pollution prevention program as a
whole. As a result, EPA is unable to provide a reasonable assurance that its measures can
prevent future oil spills and mitigate their associated impacts.”

The first sentence may be partially true; we’ve yet to embark on a significant effort to do so.
And as discussed later, certain data elements may help us gauge the significance of efforts to
improve the quality and consistency of Plans. EPA agrees that an assessment of Plans to assess


12-P-0253                                                                                                   25
the consistency at a national level (recognizing that this sample may be limited) is appropriate.
Consequently, without an assessment, it cannot be concluded EPA is unable to provide a
reasonable assurance that its measures can prevent future oil spills and mitigate their associated
impacts.

    OIG Response: We revised this section and other parts of the report to better reflect our conclusion
    that the Agency’s program is limited to the facilities it knows about and that the Agency is unaware of
    the vast majority of facilities estimated to be regulated by the SPCC regulations. We also added a
    recommendation for the Agency to assess the quality and consistency of Plans.

See also comments on the SPCC and FRP Plan review methodology regarding data quality.

    OIG Response: We addressed the Agency’s specific concerns about the Plan review methodology.

Under “What We Recommend”

The recommendations do not directly address the statements in the findings noted above and in 

the body of the draft report. The draft report also does not recognize or account for the limited 

resources1 relative to the extremely large regulated universe or the magnitude of program

elements managed using these resources. 


The oversight, management and implementation of the SPCC and FRP programs are only a 

portion of the overall management activities that make up the oil spill prevention program. The 

non-SPCC and -FRP oil activities include but are not limited to: 


Area planning/GIS work, 

Drills and exercises,

Cost recovery, 

Legal support, 

Enforcement support, 

Response activities (takes priority over all other elements), 

Response infrastructure, 

Outreach activities and support, 

Administrative support, and 

Personnel management. 


    OIG Response: We revised the report recommendations to address the Agency’s comment above. We
    also included the Agency’s concerns about the limited resources and staff relative to the large
    regulated universe in the report as part of its response.

The “At a Glance” page recommends: “a centralized and comprehensive CWA Section 311
program that includes standard operating procedures for updating policies and guidance.”
Similar language appears on page 19. OSWER is unclear if the OIG “centralized” program
recommendation means removing this program from EPA’s normal regional structure. If so, we
disagree. If something else is meant, more specifically on why the existing centralized program

1
 The Oil Program has 83.2 FTE to implement the entire oil program, not just the SPCC and FRP elements of the
program.


12-P-0253                                                                                                      26
is inadequate, is needed. In particular, the program already has SOP’s for policy and guidance
development and our responses to recommendations reflect this.

 OIG Response: Our revised recommendations no longer include the reference to a “centralized and
 comprehensive program.” We revised the “At a Glance” to reflect the final recommendations.

Chapter 1

Page 1: Background:

The three example discharge events shown here are not from facilities that fall within the scope
of the SPCC and FRP program. Pipelines are under PHMSA jurisdiction and the BP Deepwater
Horizon spill is from a facility seaward of the coastline in BOEMRE jurisdiction. As such, these
examples are not subject to EPA’s responsibility in 40 CFR 112 and are misleading to the public.
If it is necessary to establish the magnitude and concern for oil spills and relevance to the scope
of the study, then OIG should provide examples of recent spills from EPA regulated fixed
facilities where either non-compliance with oil spill prevention program requirements failed to
adequately prevent a spill or where spill preparedness was not effective to minimize harm to the
environment and relate them to the quality and consistency of Plan requirements or to the
tracking of violations and violators.

 OIG Response: We replaced the original spill examples with examples from facilities regulated by EPA
 under its CWA Section 311 program.

Although the oil spill prevention and preparedness responsibilities for the three facilities
discussed above (the pipeline spills on the North Slope and in Michigan and the BP Deepwater
Horizon spill) are not EPA’s, EPA and Coast Guard share the lead responsibility for emergency
response for the federal government. However, EPA’s emergency response program is not
within the scope of this draft report.

Discussions with response personnel in Region 4 over the past five years suggests for those spills
which resulted in deployment of an EPA On-Scene Coordinator (OSC) for emergency response,
the most common source of the oil discharge was transportation-related, and the largest spills are
typically from pipelines.

Page 2: CWA Section 311 and Federal Responsibilities

Please see the draft report text for corrections regarding the statute and Executive Orders.

 OIG Response: See appendix D for an explanation of how we addressed this comment.

Page 3: EPA’s Oil Discharge Prevention Program

Please see the draft report text for corrections regarding the SPCC regulation. Rather than
stating that “EPA managers and staff said …” the oil pollution program is not delegable to states,
it would be more accurate in the draft report to cite the statute or alternatively state: “The CWA
does not specifically authorize delegation of the oil spill prevention program to states and tribes.”


12-P-0253                                                                                          27
According to EPA’s Office of General Counsel (OGC), Congress, in enacting the CWA, did not
provide the President with the necessary statutory authority to delegate this program to the
States.

 OIG Response: We removed the reference to “EPA managers and staff” and revised the sentence to
 reflect statutory authority.

Page 3: under Plans for SPCC Facilities

See similar comment in the FRP section below. EPA recommends that there be an overview of
the number, scope and types of facilities regulated by the SPCC rule to put in context the scope
of the draft report. This data is on page 4 and should be moved to page 3.

EPA recommends that a footnote be added to explain that SPCC facilities must self-identify to
EPA and the State per §112.4 within 60 days whenever a facility has discharged more than 1,000
U.S. gallons of oil in a single discharge as described in §112.1(b), or discharged more than 42
U.S. gallons of oil in each of two discharges as described in §112.1(b). See 40 CFR 112.4.

 OIG Response: We incorporated EPA’s comments about the scope of the regulated universe and
 under which circumstances a facility must self-report to EPA into the report.

Page 3: under Plans for FRP Facilities:

EPA recommends an overview of the number, scope and types of facilities regulated by the
SPCC rule to put in context the scope of the draft report. This data is on page 4 and should be
moved to page 3.

 OIG Response: We incorporated EPA’s comments about the scope of the regulated universe into the
 report.

Page 4: under Plans for FRP Facilities:

The sentence that reads: “All SPCC facilities self-certify whether the more stringent rules and
regulations apply based on spill history, lack of adequate secondary containment, and proximity
to drinking water intakes and/or sensitive habitats” should be edited as noted in Appendix B.

The FRP requirements should not be classified as “more stringent.” The purpose of the FRP
requirements is planning and preparedness for a response to an oil discharge which is different
from the SPCC requirements which are to prevent a discharge.

Additionally, the FRP requirements are contained within the same oil pollution prevention
regulation (40 CFR 112).

 OIG Response: We edited statements in this section based upon EPA’s comments.




12-P-0253                                                                                          28
Page 4: under Deadlines for SPCC Rule Compliance:

See edits in this section of the draft report (in Appendix B) to make the text consistent with
language in the compliance date extension amendment rule: “If your drilling, production or
workover facility, including a mobile or portable facility, is offshore or has an offshore
component; or your onshore facility is required to have and submit a Facility Response Plan…”

The draft report should also address facilities coming into operation after November 2011.
These facilities must have a Plan before commencing operations (with the exception of
production facilities which have an extra six months). Failure to include this information in the
draft report provides an incomplete story regarding the compliance date.

 OIG Response: We clarified and included statements in this section of the report regarding the
 compliance date extension amendment rule to address EPA’s comments.

Bottom of Page 4, top of Page 5 and at the end of the first paragraph: EPA Inspections of and
Enforcement at SPCC and FRP Facilities:

OIG should consider adding a discussion of OEM’s Strategic Plan (Sept 2009) for the oil
program and the oil program measures in the draft report. The strategic plan addresses data
needs, compliance, and implementation of the oil spill program and potentially provides
considerable background information for this draft report.

 OIG Response: We added information about OEM’s 2009 Strategic Plan to the “Noteworthy
 Achievements” section of the report.

Any discussion of the strategic plan should follow the general discussion of the oil inspection
program. Also see edits to the text in the draft report (in Appendix B). In addition, the OIG
should consider adding to the report a discussion of EPA’s current targeting practices (the
national draft inspection targeting policy) that regional inspectors use to identify SPCC facilities
for inspection. It may also be appropriate to mention EPA’s other facility identification and
targeting practices. EPA uses state databases, State citizen referrals, oil discharge reports,
reports from SPCC facilities that self identify per section 112.4, and other various available data
sources to identify and target SPCC facilities for inspection. EPA has been extremely
resourceful in identifying and targeting facilities for inspections and, given the large universe of
covered facilities, there is ample opportunity to target limited resources on those facilities and
locations that pose a greater threat to the environment.

 OIG Response: We clarified certain statements to address EPA’s comments. Although we
 acknowledge EPA’s draft inspection targeting strategy in the report, few regions reported using this
 strategy in response to the information request.

Page 5, second paragraph. The statement “For example, Plans must include facility diagrams
….” should be edited to remove “facility diagrams.” At the time of the OIG review, facility
diagrams were not yet required under the regulations for most SPCC Plans. Currently only a
portion of covered facilities are required to include diagrams in their Plans (i.e., those required to
comply with revised SPCC requirements in November 2010).



12-P-0253                                                                                               29
 OIG Response: We disagree that reference to facility diagrams should be removed from this sentence.
 We revised our statement to specify that all Plans are required to have facility diagrams as of
 November 2011.

Page 5, third paragraph. EPA recommends that OIG remove “triennial” from in front of
Government Initiated Unannounced Exercises (GIUE). A triennial exercise of the FRP is
different than an individual GIUE. Facilities are only subject to an exercise once during a three
year period (unless the drill was unsuccessful). There is no requirement for EPA to inspect the
facilities every three years.

 OIG Response: We believe the sentence is supported within the national guidelines and left the
 sentence unchanged.

Page 6, second paragraph under Noteworthy Achievements: EPA Region 4 maintains a database
with location and classification information for FRP facilities (and SPCC facilities inspected
over the past several years) which is used in planning and preparedness. For instance, during the
recent Alabama tornado outbreak and Mississippi/Tennessee floods, this database and GIS were
used to map facilities within tornado paths and within predicted flood zones. Data was used to
provide a basis for call down lists and field assessments. This capability substantially
streamlined our assessment process. Region 4 supports the consistent national database effort
already underway.

 OIG Response: We included Region 4 in the list of regions that have used GIS in planning and
 preparedness, but did not provide specific details of its activities.

In addition, most other regions have incorporated data on SPCC facilities and FRPs in the GIS
layers used in the Area Planning efforts conducted by all ten EPA Regions.

Page 7, paragraph 4 under Scope and Methodology

As noted in the comments above for page 5, OIG, in the twenty Plan reviews, may not have
properly considered the information required to be in an SPCC Plan in light of the current
compliance date and associated extensions. Specifically, the draft report notes that some of the
SPCC Plans did not have facility diagrams and information relative to new requirements under
§112.7. However, at the time of the audit, facility diagrams were not required under the SPCC
rule for most facilities. A key Plan review parameter is the facility’s initial date of operations;
this information was not noted in most instances of the OIG support data for the study. Without
the facility’s initial date of operation, it is impossible to determine the information required to be
in the different facilities’ Plans. OEM conducted a brief review of the underlying data and
analysis of these Plans and identified concerns with the plan review methodology. At a
minimum, the review should have been based on the pre-2002 amendment requirements; at the
time of the audit, the new 2002 provisions were not required for most Plans. Instead, the 2002
requirements appear to have been incorrectly used as a metric in the OIG evaluation.

 OIG Response: We noted the importance of the facility’s initial date of operation. Although we found
 that 14 of the 20 Plans reviewed were missing this information, we added that these Plans would likely
 have needed to be amended prior to November 11, 2011, to be in compliance with the SPCC Rule
 amendments.



12-P-0253                                                                                             30
EPA is concerned that although OIG recognized the limitations of the review methodology in the
sentence: “Because we did not have a large enough sample of facilities to be statistically valid,
we cannot generalize the results of this analysis of 20 Plans to the program as a whole,” it cited
numerous deficiencies of these Plans as an indicator of program ineffectiveness and poor
management. The OIG may want to modify its conclusion and to consider recommending a
broader study of Plan consistency.

 OIG Response: We clarified certain statements in this section of the report to address EPA’s
 comments and added a recommendation on this topic.

Page 7, paragraph 5. EPA recommends that the OIG delete the Region 5 checklist. There is
only a national SPCC checklist.

 OIG Response: We deleted the Region 5 checklist.

Page 8, under Prior Audit Coverage 

With regard to the prior GAO audit, GAO's review of the universe was limited. The universe 

was modeled from state regulatory and registration databases, USDOC Census of Manufacturers, 

and USDA Census of Agriculture. 


EPA respectfully disagrees with the conclusions documented in the sentence: “EPA cannot
employ a risk-based approach to target inspections to those facilities that pose the greatest risks
of oil spills into or upon navigable waters.” EPA’s draft targeting strategy, although not risk-
based since sufficient data on the likelihood of an oil spill at any one facility is not known, is
hazard based and appropriately directs our inspection resources to facilities that, if there is a
discharge, may cause harm.

 OIG Response: Because the conclusion is from GAO’s 2008 evaluation of the SPCC program, we did
 not revise this section.

Chapter 2

Page 9, first paragraph.

OIG states: “EPA has not implemented a program that can effectively prevent oil spills to
navigable waters or mitigate the effect of those spills.” OSWER believes that this assertion is
not supported by the facts nor is it evidenced by the draft report’s requested corrective action.

 OIG Response: We believe this assertion is supported by the fact that EPA has limited knowledge of
 the facilities it is responsible for regulating under this program.

Page 9, under EPA Has Limited Knowledge of Facilities Regulated by the Oil Pollution
Prevention Program; first paragraph:




12-P-0253                                                                                             31
“The principal cause of EPA’s inability to effectively manage the CWA Section 311 program is
that the Agency does not know the location and characteristics of the vast majority of CWA
Section 311 facilities.”

EPA acknowledges that we do not have comprehensive existing information and no formal
mechanism to collect data on the location and characteristics of the vast majority of CWA
Section 311 facilities and that this information helps with compliance. However, OSWER
respectfully disagrees with the conclusion that without this knowledge alone we are unable to
effectively manage the program, especially in light of our ongoing multi-year efforts to measure
the compliance rate of facilities and other initiatives in our 5-year strategic plan for the oil
program. The information EPA has already gathered from State databases or other federal and
local data sources allows us to target certain industry sectors for compliance as we build up our
national Oil Program database capability to focus on systemic violation areas and high-risk
facilities.

 OIG Response: We acknowledge that the Agency has a program in place to manage known regulated
 facilities, and we revised this sentence and certain statements in the report. However, we continue to
 maintain that effective management of the SPCC program requires EPA to have knowledge of more
 than 4 percent of the regulated universe. Our report presents concerns with using data in state
 databases to identify regulated facilities.

Unanticipated release and discharge prevention programs are unique from traditional pollution
programs in that an evaluation of program effectiveness is not well characterized solely by either
a statistically valid measure of compliance or by precise measurements of the number of spills
occurring or prevented. We welcome a continuing dialog with OIG on ways to improve the Oil
program database, existing data, and a means to measure effective program management.

Page 10, first full paragraph. OIG states that EPA Regions admit they are still missing many
FRP facilities or have not received updated Plans.

As noted in the draft report, EPA requires submittal of FRPs to the regional offices. EPA is
currently taking steps to apply limited resources to bring these “high-risk” facilities into
compliance.

Page 10, third paragraph. State databases have been helpful in identifying owners and operators
and locations of regulated facilities and are used for targeting.

 OIG Response: We acknowledge EPA’s comment, but reiterate that there are critical limitations in
 using state databases to identify regulated facilities.

Page 11, first sentence at top of page. The industry type of the facility is not relevant to
applicability of the requirements; however, it may be relevant to targeting for inspections. It is
not clear whether it is the OIG’s intent to capture information needed for inspections or to
determine facility applicability.

 OIG Response: We revised our sentence to reflect the relevancy of facility type, as opposed to
 industry type. Depending on the type of facility, a facility may have to meet and/or incorporate
 additional requirements into its prevention Plan.



12-P-0253                                                                                             32
Page 11, under EPA Cannot Determine the Effectiveness of the Oil Pollution Prevention
Program
Given the magnitude of the regulated universe, it may be virtually impossible to know the
identity and compliance status of all covered facilities. We recommend OIG provide more
specific recommendations on this point.

 OIG Response: We agree that it would be difficult to know the identity and compliance status of the
 more than 640,000 regulated facilities; we still believe that EPA should expand its knowledge beyond
 4 percent of the regulated universe. We did not include specific recommendations on this point.

This paragraph also does not reflect all of the compliance assistance activities that EPA
performs. EPA regional and HQ staff attend industry conferences and perform outreach on the
SPCC & FRP requirements. For example, Region 6 (as with many other regions) performs
outreach activities in a particular area and then follows up with inspections. This activity does
provide EPA with compliance knowledge for each area where these seminars are conducted.

 OIG Response: The report presents a number of examples of EPA’s compliance assistance activities.

Page 11, under EPA Cannot Determine the Success of Its Steps to Enhance Quality and
Consistency of Plans

Under the first part of this section, EPA appreciates OIG’s recognition of our efforts to improve
compliance and to enhance the quality and consistency of Plans and to note the
inspection/enforcement actions in light of the magnitude of the regulated universe.

EPA also has implemented significant regional and HQ outreach efforts through conferences,
conference calls, webinars and training. Our website is provided during all outreach activities
which is another means of communication with our stakeholders. EPA regional and headquarters
staff have performed hundreds of outreach sessions to the regulated community in preparation
for the upcoming and recently passed compliance dates. And we are currently undertaking, in an
effort to address farms, the largest outreach effort in the history of the program.

 OIG Response: The report presents a number of examples of EPA’s compliance assistance activities.

Page 12, at top. The statement: “The certification by a professional engineer provided an
element of accountability that the Plan contained information required by 40 CFR 112.” While
true, it does not acknowledge the potential for greater compliance and value of having the
owner/operator certify compliance himself, especially at small, less complicated facilities.
OSWER tested this approach in proposed and final rulemakings (see appropriate FR notices for
discussion).

 OIG Response: We clarified statements in this section of the report to address EPA’s comments.

The statement: “EPA has a better idea of the effectiveness of its efforts to enhance the quality
and consistency of FRPs because facilities must submit their Plans to the Agency for review”
may not be accurate. OSWER believes this can only be gauged by reviewing Plans before and


12-P-0253                                                                                               33
after particular agency inspection efforts. Gauging consistency and quality of Plans can be 

assessed during inspections, compliance assistance efforts, and enforcement.

All FRPs submitted to EPA are reviewed by the Regions. Plans for significant and substantial 

harm facilities are approved by the Region. 


 OIG Response: We believe that our original statement is correct because EPA does review FRPs, as
 EPA indicates in its comment.

See also detailed comments in methodology section regarding the 20 Plans
The 20 Plans reviewed included both SPCC and FRPs. The requirements are not the same for
both SPCC and FRPs and it is not clear whether these differences were understood. For
example, all FRPs (and ICPs) must have facility diagrams. As noted in the Methodology section,
SPCC requirements for facility diagrams do not apply until the compliance date has arrived (and
for many facilities this date has not arrived).

 OIG Response: We added information to clarify the different requirements and formats facilities can
 use to prepare SPCC Plans, including FRPs and ICPs, as long as the SPCC Plan requirements are
 cross-referenced in the alternate format.

Page 12, under EPA Can Improve Its Efforts to Promote Consistent Inspection and
Enforcement and elsewhere:

EPA does not agree that there is any significant inconsistency in interpretation of enforceability
of FRP requirements and the authority to pursue penalties.

 OIG Response: A memorandum, which was issued subsequent to our draft report, addresses our
 concerns. We revised the presentation of this issue based on the additional information provided in the
 Agency’s responses.

Page 13, first full paragraph. There may be minor inconsistencies in what the guidance
document outlines versus what the rule requires since updating to reflect recent rulemaking is
currently underway.

The statement: “Six of the 10 regions also told us that they supplement the guidance with
regional-level SOPs” could be misleading. We resolve questions that arise on our monthly
inspector tech and oil manager calls. The updates to the guidance will include documentation of
these discussions and resolution of inconsistencies. Additionally, the basis of the existing/new
guidance is/will reflect final rule preamble discussions, which regions and the regulated
community currently have for review and use to help ensure consistent interpretation of the rule.
Finally, many of the rule amendments were deregulatory in nature and involved exemptions from
the rule. We agree the guidance needs to be updated, but generally there are few new
requirements to address in the new version of the guidance.

This draft report finding about the regional use of guidance is also based on a survey tool which,
may have been confusing to the regions and therefore may have led to significant variability in
the responses. OEM provided comments to the questionnaire and warned about the potential
confusion that the survey tool may create for the regions responding. For example, in this case,



12-P-0253                                                                                              34
while it is true that all regions use the national guidance for interpreting the rule, the regions also
develop specific SOPs for implementation (guidance). The draft report implies the regions use
different guidance for interpretation of the regulation whereas the “guidance” they were referring
to was SOPs for regional program implementation. This statement is misleading and may
undermine the twelve year effort to promote consistent interpretation of the regulation that
culminated in the release of the 2005 guidance document.

 OIG Response: We clarified statements in this section of the report to address EPA’s comments.

Page 14, last paragraph. The issues listed below are not enforcement issues, rather they are
jurisdictional.

The estimate of 70,000 offshore facilities under EPA’s jurisdiction was speculative and not the
number of facilities located in State Waters seaward of the coastline.

NOTE: If this number was passed on to BOEMRE in the April 2011 letter referenced in footnote
12, EPA recommends that OIG work with BOEMRE to correct this number, as there appears to
have been some sort of mix up in the numbers provided in the draft report and potentially in the
letter to BOEMRE.

The recommendation to improve coordination with other federal partners does not relate to
EPA’s management of its oil program. While there may be a gap in federal oversight, BOEMRE
is the appropriate agency to rectify this, if necessary. EPA does not have jurisdiction to inspect
these facilities.

 OIG Response: We removed this section and recommendation from the final report. We notified the
 DOI OIG of this issue in April 2011.

Page 15, at top. The title “EPA Cannot Establish National Trends in Compliance History for
Known SPCC Facilities” implies that EPA does not currently have the capability to establish
national trends in non-compliance. ICIS currently has the capability to track these trends.

 OIG Response: Although we agree that ICIS is able to track national trends in noncompliance, we
 believe that this capability is extremely limited, and that EPA cannot effectively establish national
 trends. We revised the title of this section.

Page 15, top paragraph. Regarding the need for a database to allow for knowledge of trends and
history of inspected facility noncompliance and enforcement, EPA believes the draft report
findings do not give sufficient weight or value to the monthly national calls that this program has
initiated. Trends in compliance are routinely discussed on these monthly program and
enforcement oil program calls.

 OIG Response: We recognize monthly national calls as one tool the Agency uses to discuss trends in
 noncompliance. However, we believe this tool has limited capability to identify potentially undiscovered
 trends for targeting inspections and prioritizing limited resources.




12-P-0253                                                                                                35
Page 15, under the heading of “EPA’s Regional and National Databases,” OEM and OC have
been working together and will continue to do so to achieve electronic crosstalk capability
between the OEM Oracle database and ICIS to capture compliance monitoring data.

Page 15, at the bottom. The statement: “The current Access database and the forthcoming
version of the National Oil Database do not specify the reason a facility is in noncompliance” is
incorrect, as there is a comment field in the database where this information can be added.
ESA codes and ICDS codes are included in the July 2011 deployment.

 OIG Response: We maintain that this statement is correct. An optional comment field does not allow
 the Agency to easily analyze this information. We believe specific codes to categorize noncompliance
 (and violations) would give the Agency an additional tool to make program resource and management
 decisions.

Page 16, at top. EPA obtains this information from other sources. For example, EPA has
information from trade associations, comments on rulemakings, and from stakeholders that
participate in outreach activities that informs these programmatic management decisions.

 OIG Response: We do not claim that these are without value, but they are incomplete.

Page 16, under Other Databases: Many of these facilities are outside of EPA’s jurisdiction and
are not inspected by EPA for SPCC and FRP compliance.

Also, the statement: “For example, if a facility regulated by DOT discharges oil, EPA becomes
responsible for the cleanup if the oil reaches EPA response jurisdiction” is factually incorrect.
See edits to this statement in the draft report.

 OIG Response: We removed this section from the report.

Page 16, Conclusion

EPA agrees with the finding on the lack of program data and the source of certain
implementation challenges the program faces, from targeting to regulatory action development.
The draft report however, does not put into context all the current program activities performed
to manage and implement the program with the level of resources available.

 OIG Response: Based on the Agency’s comments, a number of the current program activities are
 highlighted in the final report. Although we recognize that these activities help the Agency manage and
 implement the program, the Agency only knows the effectiveness of these activities for less than
 4 percent of the regulated universe.

The increases in the success rate of the Government Initiated Unannounced Exercises (GIUEs)
over the last several years in regions such as Region 1 are an example of the success of the
program as well as the currently implemented database and program measures.




12-P-0253                                                                                               36
Recommendations

These recommendations fail to address the criticism of the program given in the findings. OIG
provides no information on how these relate.

 OIG Response: We disagree; the recommendations are directly related to our findings.

Under Recommendation #1

Recommendations 1a and 1c should be combined as they appear to be duplicative (if kept, as the
recommendation is outside the scope of the report).

The National Oil Program Strategic Plan, national training programs, national guidance/policy
documents, and OMB approved national program measures (all of which are currently
implemented in the oil program) are the foundation for a centralized program and its evaluation
which the program views as a success relative to our resource allocation.

 OIG Response: We recognize that many components of the program are centralized, and we clarified
 statements throughout the report to reflect this recognition.

Recommendation 1a should be removed. 

This wasn’t identified as a problem in the scope of the report so the recommendation should be 

removed. If not removed, OEM has provided a preliminary response (see report edits). 


 OIG Response: We believe the recommendation is warranted. Even though EPA is currently working
 on revising guidance, this recommendation goes beyond current efforts to update guidance to include
 procedures for keeping the guidance updated in the future.

The statement: “a centralized and comprehensive CWA Section 311 program that includes
standard operating procedures for updating policies and guidance …”

What is meant by “standard operating procedures” for updating policies and guidance?
 OIG Response: We removed this phrase from the recommendation.

Recommendation 1b
Can OIG describe what it means by a “risk-based strategy toward inspections and enforcement
actions?” As described above, we have ample information on the hazards posed by oil storage
facilities sufficient for targeting until such time as information to be collected in our national
database system is robust enough to adjust that targeting.

 OIG Response: The Agency needs an inspection strategy that focuses its limited resources on those
 facilities that pose the greatest risk of having a spill that could harm human health or the environment.
 Because the Agency is only aware of approximately 4 percent of all regulated facilities, it should
 include approaches to identify unknown facilities to improve targeting.




12-P-0253                                                                                                    37
Recommendation 1.b
 It is not completely clear what was intended by the recommendation to direct enforcement
resources toward those facilities where spills pose the greatest risks to human health and the
environment. EPA believes that the FRP portion of the program was designed to identify those
high risk facilities. Risk is already considered when making a decision to bring an enforcement
action. While our enforcement program does address high risk spills, there are many factors that
might contribute to a decision to bring an enforcement action, including the history of violations
at the facility, the need for injunctive relief, whether there are other similar facilities with similar
noncompliance, whether there have been spills at the facility, and whether enforcement is the
most effective tool to achieve compliance and have the greatest deterrent effect. The risk
presented by a facility is certainly an important consideration, but these other enforcement
factors must also be considered when making enforcement decisions.

 OIG Response: We removed the reference to enforcement in this recommendation.

Recommendation 1c
The statement: “Consistent interpretation of EPA’s authority to enforce regulations” is identical
to recommendation 1 A.

 OIG Response: Although the Agency resolved the specific issue we identified during the evaluation,
 we still believe that this is a valid recommendation for future enforcement situations. EPA must commit
 to continuing consistent interpretation of EPA’s authority to enforce regulations in the future.

Recommendation 2e
Change databases from the plural to the singular, database. As stated previously, EPA plans to
have crosstalk capability between the OEM Oracle database and ICIS, not with any other
databases.

 OIG Response: We made the suggested edit.




12-P-0253                                                                                              38
                                                                                                    Appendix D

          Agency Response From OSWER and OECA: 

                       Attachment B 

OIG NOTE: We responded to all of the comments embedded in attachment B below. Technical changes
suggested by the Agency were incorporated into this final report as appropriate, but are not recreated in
this appendix. Attachment A of the Agency’s response is included in appendix C of this report.


   Final
  report
 page no.                    Agency comment                                 OIG analysis and response

 Cover       Suggest replacing the bird photograph with this         We replaced this photo.
             one. It shows the variability (large scope) of the
             facilities we regulate (production versus storage)
             and is a facility we actually regulate under the EPA
             oil program. Caption: Pump jack at a non-
             transportation related oil production facility (EPA
             Photo).


             Suggest removing this photograph; the bird was
             oiled as a result of a discharge from a facility that
             EPA does not regulate and is related to response
             which is outside the scope of this report.

 At A        This [the phrase “located landward of the coastline”    We removed this phrase from the “At a
 Glance      in the Background section] is not consistent with       Glance.”
             regulatory text.

 1           This error [use of lowercase plans in context of        We made this change.
             SPCC Plans] occurs throughout the report. SPCC
             “Plan” is a specific term and is capitalized to
             distinguish from any other plan.

 1           All three of these examples [in the Background] are     We provided different examples.
             facilities not covered under EPA’s Oil Pollution
             Prevention Program. The use of these examples
             may imply that EPA’s Oil Pollution Prevention
             Program was inadequate to prevent these
             devastating spills when in reality, the program was
             not applicable. EPA and the Coast Guard share
             the lead for emergency response at such facilities,
             however, the emergency response program is not
             the subject of this report

 2           The prevention and response planning authority is       We made changes to clarify this point.
             delegated to several agencies, including DOI, DOT,
             EPA, and the USCG.

 2           The scope of the 311(j) authority is broader than       We deleted the phrase “navigable waters” in
             navigable waters; the cleanest way to correct this is   relation to CWA 311(j) authority.
             to delete this phrase.




12-P-0253                                                                                                          39
   Final
  report
 page no.                   Agency comment                                 OIG analysis and response

 3          EPA does not regulate hazardous materials under         We deleted the phrase “hazardous
            the SPCC and FRP regulations. The CWA term is           substances.”
            hazardous substances.

 3          [The phrase “located landward of the coastline” is]     We removed this phrase.
            Inconsistent with the regulatory text. See 40 CFR
            part 112.

 3          Cite basis and regulatory location [for “EPA has the    We revised this sentence to better reflect the
            authority to reclassify a facility as a “substantial    requirements under 40 CFR 112.20(b)(1) and
            harm” or “significant and substantial harm”             112.20(c) that allows the Regional
            facility.”].                                            Administrator to require a facility to prepare
                                                                    and submit an FRP to the Agency.

 4          Cite regulation and who approves [the FRPs from         Support can be found in 40 CFR 112
            significant and substantial harm facilities].           Appendix F(B) for the portion of the sentence
                                                                    that discusses approval of FRPs. We also
                                                                    state here that FRPs are subject to approval
                                                                    by the Regional Administrator.

 5          Inspectors always do this, [confirm that the facility   EPA did not provide evidence for this.
            meets the applicability criteria for the SPCC Rule]     Therefore, we did not make any changes to
            there is no evidence to the contrary.                   the statement.

 5          How about FRP Regulations? [in response to              We did not discuss FRP regulations because
            approximately 55 percent of inspected facilities        the information provided by EPA was
            were identified as not in compliance with SPCC          incomplete.
            regulations at the time of inspection]

 7          IG needs to explain what these [Integrated              Footnote 11, which explains Integrated
            Contingency Plans] are relative to FRPs and SPCC        Contingency Plans, is already included in the
            Plans.                                                  report.

 9          FRP facilities do not have to submit their SPCC         We revised the sentence.
            plans. [in response to original sentence “Only
            SPCC facilities also covered under the FRP
            requirements must report their presence, and
            submit their plans to EPA.”]

 9          See sentence in the paragraph below on FRP              We moved this sentence as suggested.
            facilities; suggest moving it here. [“Region 6
            recently discovered 45 previously unknown SPCC
            regulated oil and gas production facilities in New
            Mexico while conducting targeting activities.”
            Suggestion to move from 3rd paragraph of EPA
            Has Limited Knowledge section to last sentence of
            2nd paragraph in same section]

 10         Consider adding: “However, EPA has made strides         We added a sentence about this effort.
            in working with the states, the U.S. Department of
            Commerce and the U.S. Department of Agriculture
            in identifying information on facilities during the
            regulatory action development process.” [to end of
            first full paragraph, starting “As of May 2011, OEM
            staff…”]




12-P-0253                                                                                                            40
   Final
  report
 page no.                   Agency comment                                 OIG analysis and response

 10         While we agree that the burden of proving that a        We revised the sentence.
            water body is jurisdictional and that there is a
            reasonable likelihood that a discharge from the
            facility might enter a jurisdictional water body is
            sometimes resource intensive, we are concerned
            that the OIG conclusion, as drafted, might read to
            mean that all such analyses are always
            burdensome, which they are not. [in response to
            facilities reporting that the CWA Section 311
            regulations do not apply because it believes there
            is no proof that the stream or waterway near the
            facility is a navigable water of the United States].

 11         There is no mention here of the OEM Strategic           We included information on the OEM Strategic
            Plan and the OMB approved oil measures. This is         Plan and OMB-approved oil measures to the
            a major oversight with regard to measures taken by      “Noteworthy Achievements” section.
            EPA to manage the program. [EPA Cannot
            Determine the Effectiveness section]

 11         Compliance assistance involves actions taken            We revised this statement.
            independently from enforcement. We do not
            provide compliance assistance as part of an
            enforcement action. [in response to EPA providing
            compliance assistance at a facility owner/operator’s
            request or as part of an enforcement action].

 11         EPA has implemented significant regional and HQ         We included the additional outreach efforts
            outreach efforts through conferences, conference        noted by the Agency in its comment in the
            calls, webinars and training. Our website is            suggested paragraph of the report. However,
            provided during all outreach activities which is        we believe that these outreach efforts are
            another means of communication with our                 targeted to the limited known universe rather
            stakeholders. EPA regional and headquarters staff       than expanding the size of the known
            have performed hundreds of outreach sessions to         universe.
            the regulated community in preparation for the
            upcoming and recently passed compliance dates.
            And we are currently undertaking, in an effort to
            address farms, the largest outreach effort in the
            history of the program. [in response to EPA utilizing
            it website as the principal means of communication
            with regulated facilities, an indirect and passive
            approach under the EPA Cannot Determine the
            Success of its Steps subsection]

 11         Given the magnitude of the regulated universe,          We mentioned steps EPA takes to track the
            EPA acknowledges that it may never know the             number of facilities that return to compliance
            identity and compliance status of all covered           as part of the program measures.
            facilities. Even so, EPA continues to seek ways to
            use limited resources to effectively target sectors
            with high non-compliance rates and to bring these
            facilities into compliance, seek progressively higher
            rates of compliance each year through our program
            measures, and to build our informational databases
            to work toward understanding prevention program
            effectiveness. [in response to the second
            paragraph under the EPA Cannot Determine the
            Success of its Steps subsection]




12-P-0253                                                                                                            41
   Final
  report
 page no.                  Agency comment                                  OIG analysis and response

 12         EPA respectfully disagrees it is unable to assess       We clarified the statement in the report to
            the quality or consistency of prevention and            reflect that the Agency is currently only able to
            response plans. See Attachment A. [in response          assess the quality and consistency at known
            to statement that EPA is unable to assess the           facilities.
            quality or consistency of prevention and response
            plans in the EPA Cannot Determine the Success of
            its Steps subsection]

 12         EPA does not control the rulings of federal judges,     We removed the word “rulings.”
            ALJ’s, the EAB or hearings officers. We have,
            however, taken steps to improve consistency in the
            types of enforcement actions that EPA might
            pursue to address similar types of noncompliance.
            [in response to the phrase “regional enforcement
            rulings and decisions” in the first paragraph of the
            EPA Can Improve its Efforts to Promote Consistent
            Enforcement subsection]

 12         The penalty policy provides a standardized              We added additional information to the
            approach to settlement penalties. See description       sentence.
            in Recommendations section below for additional
            information on OECA’s efforts to promote
            consistent enforcement. [in response to “OECA
            published a civil penalty policy for CWA Section
            311(b) and 311(j) programs” located in first
            paragraph of EPA Can Improve its Efforts to
            Promote Consistent Enforcement subsection]

 --         EPA respectfully disagrees that there is a lack of      This inconsistency was resolved after we
            agreement over FRP enforcement.                         issued our draft report. We revised the
                                                                    presentation of this issue based on the
                                                                    additional information provided in the Agency’s
                                                                    responses.

 13         These efforts [inspection targeting, enforcement,       We revised the statement based upon the
            and implementation strategies] were under               Agency’s comment.
            consideration before the recent oil spills.

 13         Added scope to address the scope of the effort          We added scope to the statement.
            [inspection targeting, enforcement, and
            implementation strategies].

 13         OECA and OSWER have been, and will continue             We made no changes.
            to, discuss and coordinate on these efforts
            [inspection targeting, enforcement, and
            implementation strategies].

 13         We recommend OIG consider modifying or deleting         We added a footnote to clarify the ESA
            the two parentheticals in this paragraph that           process based upon the Agency’s comment.
            specifically identify regions. We do not believe that
            the decision of these regions not to use the ESA
            demonstrates any inconsistency in enforcement.
            The ESA process is a voluntary tool that some
            regions use to quickly address small, easily
            correctable violations. Other regions may use
            different tools to achieve the same purpose.




12-P-0253                                                                                                           42
   Final
  report
 page no.                   Agency comment                                 OIG analysis and response

 13         This report does not otherwise address the spills       We did not make any revision since the
            enforcement program; consider whether this              following sentence refers to CWA 311(j).
            statement should be deleted.

 --         EPA respectfully disagrees and requests that the        This inconsistency was resolved after we
            OIG consider deleting it from the report.               issued our draft report. We revised the
                                                                    presentation of this issue based on the
                                                                    additional information provided in the Agency’s
                                                                    responses.

 13         EPA respectfully disagrees with this statement and      This inconsistency was resolved after we
            requests that the OIG consider deleting it from the     issued our draft report. We revised the
            report.                                                 presentation of this issue based on the
                                                                    additional information provided in the Agency’s
                                                                    responses.

 13         EPA respectfully disagrees with this statement and      This inconsistency was resolved after we
            requests that the OIG consider deleting it from the     issued our draft report. We revised the
            report.                                                 presentation of this issue based on the
                                                                    additional information provided in the Agency’s
                                                                    responses.

 --         EPA does coordinate with other federal partners on      We removed this paragraph from the report.
            enforcement when there is overlapping                   This issue was referred to DOI OIG.
            enforcement authority or potentially related claims.
            EPA has a memorandum of agreement with the
            U.S. Coast Guard for enforcement coordination.

 --         EPA does not have authority to inspect [for SPCC        We removed this paragraph from the report.
            and FRP compliance] these facilities [offshore
            facilities not subject to SPCC or FRP regulations]

 --         EPA does not believe that this report is the place to   We removed this paragraph from the report.
            comment on the performance of DOI as that is not
            the subject of this report, nor is it within the
            expertise or role of EPA to be commenting on the
            DOI program.

 --         The implication is that EPA should take some            We removed this paragraph from the report.
            enforcement actions, but it cannot for facilities not
            under EPA jurisdiction (such as the ones which
            remain under DOI jurisdiction). We recommend
            that the implication/nuance be addressed. [in
            response to statement that DOI retains jurisdiction
            for offshore facilities”].

 --         The Submerged Lands Act and case law define the         We removed this paragraph from the report.
            terms used in the MOU. Under the Submerged
            Lands Act and case law these facilities are not
            landward of the coastline. Under the Act and the
            MOU, 39these facilities in state waters, seaward of
            the coastline, are the responsibility of BOEMRE.
            EPA does not have the resources or jurisdiction to
            inspect these facilities in state waters seaward of
            the coastline.




12-P-0253                                                                                                        43
   Final
  report
 page no.                   Agency comment                                  OIG analysis and response

 13         EPA respectfully disagrees with this conclusion          Although we agree that EPA is able to track
            [heading EPA Cannot Establish National Trends in         national trends in noncompliance, we believe
            Compliance History for Known SPCC Facilities].           that this capability is extremely limited—to
            See comments in Attachment A.                            known facilities—and that EPA cannot
                                                                     effectively establish national trends. We
                                                                     revised the title of this section.
 14         Please note that ICIS has the capability to track        We made no changes in response to this
            CWA Section 311 violations for both SPCC and             Agency comment. ICIS currently is not capable
            FRP subject facilities. [in response to last             of capturing trends or providing a full and
                         st
            sentence of 1 paragraph of EPA Cannot Establish          detailed history of deficiencies and
            National Trends section]                                 noncompliance.

 14         Once the new data system is in place better              We made no changes because the new data
            knowledge regarding specific deficiencies will be        system is not in place yet.
            available. [in response to first sentence under
            EPA’s Regional and National Databases
            subsection]

 14         The Oracle database is currently live. [in response      We updated this sentence to reflect when the
            to statement that the Oracle platform was projected      Oracle database actually went live.
            to go live in mid-July 2011].

 14         Note that ICIS will be ready for cross-talk capability   We revised this sentence to reflect the
            with the Oil Program database by the first quarter       projected date of FY 2012.
            of FY12. It may take longer for the Oil Program
            database to be ready for this function. [in response
            to statement about duplicative data entry]

 14         The terms “deficiency” and “noncompliance” are           We agree with the Agency’s comment
            terms of art. The edits regarding these terms are        regarding the difference between “deficiency”
            intended to ensure that they are said accurately.        and “noncompliance.” As a result, we revised
            “Noncompliance” suggests that the region has             the sentence to reflect the correct terminology.
            concluded that a violation has occurred. The
            database also tracks sections taken to address
            “deficiencies” and return the facility to compliance
            before a complete analysis of violations takes
            place. Deficiencies are potential violations – they
            do not necessarily demonstrate noncompliance. [in
            response to OEM has not established codes that
            indicate whether a facility was out of compliance.]

 14         A deficiency is a potential violation – it does not      We made no changes.
            necessarily demonstrate noncompliance.

 14-15      Although mistakes can be made, OC annually               We revised the sentence to acknowledge the
            issues a Reporting Plan to the regions establishing      reporting plan. However, we believe the
            the reporting and data certification schedules for       analysis still stands.
            ICIS. This Plan also includes an attachment
            focused on recommendations for improving data
            quality. At midyear and end of year reporting
            cycles the DRA certifies that enforcement and
            compliance data has been reviewed and is correct.
            [in response to incomplete/inconsistent
            enforcement data entry statement]




12-P-0253                                                                                                           44
   Final
  report
 page no.                  Agency comment                                  OIG analysis and response

 14-15      ICIS is designed to allow tracking of national trends   We revised the sentence to acknowledge the
            in compliance enforcement history for most of the       reporting plan. However, we believe the
            media programs, including SPCC and FRP.                 analysis still stands.
            Although mistakes can be made, OC annually
            issues a Reporting Plan to the regions establishing
            the reporting and data certification schedules for
            ICIS. This Plan also includes an attachment
            focused on recommendations for improving data
            quality. At midyear and end of year reporting
            cycles the DRA certifies that enforcement and
            compliance data has been reviewed and is correct.
            [in response to incomplete/inconsistent
            enforcement data entry statement]

 --         To the extent EPA would need this information, we       We removed this section.
            are able to obtain it from the federal regulatory
            agency. [in response to statement about
            incomplete facility histories]

 --         It may be possible to have periodic meetings with       We removed this section.
            these other agencies as necessary to discuss such
            issues

 --         DOT provides a lot of information on its website        We removed this section.
            regarding its administrative orders and other
            enforcement activities. EPA has easy access to
            this publicly available information.

 --         Different tank thresholds and other regulatory          We removed this section.
            differences would make sharing data with states on
            a regular basis unnecessary and not very useful.
            For some compliance determination initiatives it
            may make sense to seek using certain state data
            for facility targeting. This could be done with
            specific information collection requests as needed.

 15         EPA suggests the OIG consider the following             We reviewed the Agency’s suggested revision.
            conclusion: “EPA lacks the data to ensure               We made slight changes based upon the
            comprehensive oversight of the CWA Section 311          Agency’s suggestion.
            program designed to prevent, plan and prepare for
            oil spills. The Agency has provided guidance to
            owners and operators of SPCC facilities, but can
            only evaluate the quality of the SPCC Plans based
            on the small number inspected per year. Because
            the SPCC regulations do not require facilities to
            notify EPA that they are regulated, EPA cannot
            identify every facility in the SPCC regulated
            universe and can only produce a limited
            compliance history in its program database. While
            EPA is moving in the right direction with its
            upcoming national oil program database, the
            database will not exchange data with other EPA
            databases.
 15         This [fields/codes to categorize noncompliance]         We still believe that specific fields/codes are
            has been addressed in the database.                     needed in the national oil program database.
                                                                    An optional comment field is not an adequate
                                                                    tool for analyzing trends in noncompliance.



12-P-0253                                                                                                             45
   Final
  report
 page no.                   Agency comment                                 OIG analysis and response

 --         EPA respectfully disagrees with this statement and      This inconsistency was resolved after we
            requests that the OIG consider deleting it from the     issued our draft report. We revised the
            report.                                                 presentation of this issue based on the
                                                                    additional information provided in the Agency’s
                                                                    responses.
 15         There is already centralized oversight of CWA 311       We agree with the Agency’s comments. As a
            enforcement. Judicial enforcement actions               result, we removed the reference to
            involving CWA Section 311 regulatory violations         centralized oversight.
            are already designated as nationally significant and
            require headquarters involvement and review.
            OECA is involved in CWA 311 administrative
            enforcement in a similar manner as other CWA
            administrative cases – when a case presents
            issues of national significance, then the region will
            coordinate with OECA.
 15         OEM believes it has already taken steps to address      We reviewed the Agency’s comment and
            this recommendation. We suggest the findings in         revised the recommendations to incorporate
            the report be recast to call for program                the Agency’s suggestion.
            improvement and suggest OIG provide
            recommendations to improve the quality and
            consistency of Plans. We suggest a
            recommendation that OEM will audit a certain
            number of Plans inspected and reviewed by the
            regions and access the consistency of Plans at a
            national level recognizing that this sample will be
            limited). We believe this recommendation should
            be implemented after the compliance date arrives
            so this evaluation will be relevant to the suite of
            rule changes made from 2002 forward and their
            effect on plan consistency and quality.
 15         OSWER and OECA are working together to                  We made no changes.
            develop an enforcement and implementation
            strategy for the oil program (SPCC and FRP). This
            effort includes discussions for inspection, targeting
            and enforcement response.
 15         We recommend deletion of “and enforcement               We deleted the phrase in question from the
            actions” in b. We also recommend changes in i to        sentence. We incorporated the Agency’s
            reflect the OIG’s focus on the prevention program.      suggested recommendation wording, which
            See Attachment A explanation under the section          focuses on the prevention program.
            “Recommendations1.b.”

 16         OEM agrees that consistent interpretation is a good     Although this specific issue was resolved
            recommendation but we have already taken                during the course of the evaluation, we believe
            actions to increase consistency                         it is important that EPA ensure that
                                                                    consistency is maintained in the future;
                                                                    therefore, we retained this recommendation.




12-P-0253                                                                                                        46
   Final
  report
 page no.                  Agency comment                                 OIG analysis and response

 16         We recommend deletion of “and EPA’s authority to       Although the issue identified by the OIG was
            enforce regulations.” We believe there is consistent   resolved during the course of the evaluation,
            interpretation of EPA’s authority to enforce the FRP   we believe it is important that EPA ensure that
            regulations. As explained previously above (and in     consistency is maintained in the future. We
            Appendix A), OECA recommends deleting this             revised the presentation of this issue on
            recommendation because there is consistent             page 13 of this report.
            interpretation of EPA’s authority to enforce the FRP
            regulations. OECA has promoted consistent
            enforcement by developing a national penalty
            policy and expedited settlement option, is working
            with OSWER to develop an enforcement and
            implementation strategy, and participates in
            enforcement actions that involve issues of national
            significance. Through national meetings, monthly
            conference calls, informal dialogue, and
            headquarters coordination meetings, OECA
            regularly engages in discussions with regional
            enforcement staff, OSWER, and the Office of
            General Counsel to coordinate on consistency of
            enforcement approaches and regulatory
            interpretation.
 16         We believe that ICIS can currently track these         We believe that the deficiency and
            trends                                                 noncompliance trends ICIS is capable of
                                                                   reporting do not contain enough detail to help
                                                                   the Agency assess the effectiveness of its
                                                                   program activities.
 16         OEM believes that the National Oil database will       We believe that the National Oil Database is
            track these trends                                     not capable of reporting this information in
                                                                   enough detail to help the Agency assess the
                                                                   effectiveness of its program activities.
 --         We recommend that reference to enforcement             We removed the reference to enforcement in
            should be deleted from these recommendations           this recommendation.
            because we do not believe the OIG intended to
            include recommendations for spills and other
            enforcement strategies. See Attachment A for
            explanation in section “Recommendation 1.b."




12-P-0253                                                                                                           47
                                                                                       Appendix E

                   Agency Response From Region 5
July 29, 2011

PRE-DECISIONAL

MEMORANDUM

SUBJECT: 	 Region 5 Response to the Office of Inspector General’s Draft Report:
           “EPA Needs to Improve Management of Its Oil Pollution Prevention Program”
           Project No. 2010-1360

FROM: 	         Susan Hedman
                Regional Administrator

TO: 	           Wade Najjum
                Assistant Inspector General for Program Evaluation

Region 5 appreciates the opportunity to comment on the above-referenced draft report. In our
view, the draft fails to recognize the strengths of Region 5’s oil pollution prevention,
enforcement and compliance assistance program. Consequently, I am writing to highlight some
of Region 5’s work in this area.

Region 5 has reviewed over 600 Facility Response Plans (FRPs), including 312 from significant
and substantial harm facilities that have been approved. We are in the process of reviewing for
approval the remaining 84 FRPs for significant and substantial harm facilities in Region 5.

Following the 2010 BP Deepwater Horizon spill, I directed my staff to reexamine the FRPs for
all 23 BP facilities within one-half mile of the Great Lakes to ensure that these facilities are
ready to respond to oil spills. My staff met with BP to discuss the deficiencies that we identified
in the course of this review (e.g., failure to identify vulnerable areas; spill response notification
forms that lacked information; incomplete or illegible diagrams; outdated certification pages;
missing equipment; and unsigned substantial harm forms.) Region 5 is reviewing BP’s corrected
FRPs, and thus far we have found only minor deficiencies.

During the summer of 2010, we also reexamined the FRPs for all 25 significant and substantial
harm facilities within one-half mile of the Great Lakes. Although we found only minor
deficiencies, these facilities were required to amend the plans and resubmit them for our
approval. As of this date, all but 4 have been approved. My staff expects these to be approved by
the end of the calendar year.

Region 5 has also issued many orders for oil spill cleanups, such as the ongoing response to the
Enbridge pipeline spill in Marshall, Michigan. In that case, within a day of being notified of the
pipeline rupture, Region 5 issued an order requiring Enbridge to immediately abate the imminent


12-P-0253                                                                                          48
and substantial endangerment caused by one of the largest oil spills in Region 5 history. As a
result of this order and under Region 5’s oversight, Enbridge has recovered almost a million
gallons of oil, 15 million gallons of mixed oil and water, and 113,000 cubic yards of oil-
contaminated waste from the waterways impacted by the spill. This type of prompt issuance of
clean up orders is now the norm in Region 5.

Finally, please note that Region 5 objects to language in the draft report which indicates that
Region 5 believes that there are no enforcement options available when a facility does not
implement its FRP. (OIG draft report, pg. 12.) This is incorrect. Indeed, our Office of Regional
Counsel recently circulated a memorandum describing our enforcement approach. (A copy of
that memorandum is attached.) We are also working with Headquarters on the national
enforcement strategy.

 OIG Response: We significantly revised the presentation of this issue based on the additional
 information provided in headquarters’ and Region 5’s separate responses. The attachment to
 Region 5’s response is not included in this report.

If you have any questions, please contact me or have your staff contact Sharon Jaffess,
Superfund Division at 312-353-0536 or jaffess.sharon@epa.gov.

Attachment

cc: Cynthia Giles, OECA
Mathy Stanislaus, OSWER
Eric Levy, R5 - RMD




12-P-0253                                                                                          49
                                                                            Appendix F

                                   Distribution
Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Assistant Administrator for Enforcement and Compliance Assurance
Regional Administrator, Region 5
Deputy Assistant Administrator, Office of Solid Waste and Emergency Response
Deputy Assistant Administrator, Office of Enforcement and Compliance Assurance
Director, Office of Emergency Management, Office of Solid Waste and Emergency Response
Director, Office of Compliance, Office of Enforcement and Compliance Assurance
Director, Office of Civil Enforcement, Office of Enforcement and Compliance Assurance
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Affairs
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-Up Coordinator, Office of Enforcement and Compliance Assurance
Audit Follow-Up Coordinator, Region 5




12-P-0253                                                                                50
